<html>
<title> - THE EVOLUTION OF STATE APPROVING AGENCIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
               THE EVOLUTION OF STATE APPROVING AGENCIES

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2009

                               __________

                           Serial No. 111-35

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
51-874                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

THOMAS S.P. PERRIELLO, Virginia      JOHN BOOZMAN, Arkansas, Ranking
JOHN H. ADLER, New Jersey            JERRY MORAN, Kansas
ANN KIRKPATRICK, Arizona             GUS M. BILIRAKIS, Florida
HARRY TEAGUE, New Mexico

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             July 16, 2009

                                                                   Page
The Evolution of State Approving Agencies........................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    26
Hon. John Boozman, Ranking Republican Member.....................     2
    Prepared statement of Congressman Boozman....................    26

                               WITNESSES

U.S. Department of Veterans Affairs, Keith M. Wilson, Director, 
  Office of Education Service, Veterans Benefits Administration..    17
    Prepared statement of Mr. Wilson.............................    44

                                 ______

American Legion, Mark Walker, Deputy Director, National Economic 
  Commission.....................................................     5
    Prepared statement of Mr. Walker.............................    28
American Veterans (AMVETS), Raymond C. Kelley, National 
  Legislative Director...........................................     6
    Prepared statement of Mr. Kelley.............................    30
Bishop, Hon. Timothy H., a Representative in Congress from the 
  State of New York..............................................     3
    Prepared statement of Congressman Bishop.....................    27
Iraq and Afghanistan Veterans of America, Patrick Campbell, Chief 
  Legislative Counsel............................................     8
    Prepared statement of Mr. Campbell...........................    31
National Association of State Approving Agencies, Charles Rowe, 
  President......................................................    16
    Prepared statement of Mr. Rowe...............................    36
Veterans of Foreign Wars of the United States, Justin Brown, 
  Legislative Associate, National Legislative Service............     9
    Prepared statement of Mr. Brown..............................    34

                       SUBMISSION FOR THE RECORD

Servicemembers Opportunity Colleges, Washington, DC, Kathryn M. 
  Snead, Ed.D., President, statement.............................    46

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Hon. Timothy H. Bishop, U.S. House of Representatives, 
      letter dated July 20, 2009, and Congressman Bishop's 
      responses..................................................    48
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Mark Walker, Deputy Director, National Economic Commission, 
      American Legion, letter dated July 20, 2009, and response 
      letter dated August 31, 2009...............................    49
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Raymond C. Kelley, National Legislative Director, AMVETS, 
      letter dated July 20, 2009, and Mr. Kelley's responses.....    50
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Patrick Campbell, Chief Legislative Counsel, Iraq and 
      Afghanistan Veterans of America, letter dated July 20, 
      2009, and Mr. Campbell's responses.........................    52
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Justin Brown, Legislative Associate, National Legislative 
      Service, Veterans of Foreign Wars of the United States, 
      letter dated July 20, 2009, and Mr. Brown's responses, 
      dated September 1, 2009....................................    53
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Charles Rowe, President, National Association of State 
      Approving Agencies, letter dated July 20, 2009, and 
      response from William D. Stephens, President, National 
      Association of State Approving Agencies, letter dated 
      August 28, 2009............................................    55
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Keith M. Wilson, Director, Office of Education Service, 
      Veterans Benefits Administration, U.S. Department of 
      Veterans Affairs, letter dated July 20, 2009, and VA 
      responses..................................................    60


               THE EVOLUTION OF STATE APPROVING AGENCIES

                              ----------                              


                        THURSDAY, JULY 16, 2009

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:25 p.m., in 
Room 340, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [chairwoman of the Subcommittee] presiding.

    Present: Representatives Herseth Sandlin, Adler, Teague, 
and Boozman.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen.
    The Committee on Veterans' Affairs, Subcommittee on 
Economic Opportunity, hearing on State Approving Agencies (SAA) 
will come to order.
    Before I begin with my opening statement, I would like to 
state that Dr. Kathryn Snead, President of the Servicemembers 
Opportunity Colleges has asked to submit a written statement 
for the hearing record. I ask unanimous consent that Dr. 
Snead's statement be entered for the record.
    Hearing no objection, so entered.
    [The prepared statement of Dr. Snead appears on p. 46.]
    I ask unanimous consent that all Members may have 5 
legislative days to revise and extend their remarks and that 
written statements be made a part of the record.
    Hearing no objections, so ordered.
    My colleagues may recall that we conducted a hearing in 
April 2007 on the subject of State Approving Agencies. In that 
hearing, we sought to determine how the U.S. Department of 
Veterans Affairs (VA) was following up on a 2007 U.S. 
Government Accountability Office (GAO) report entitled, 
``Management Actions Needed to Reduce Overlap in Approving 
Education and Training Programs and to Assess State Approving 
Programs,'' to ensure Federal resources are not duplicated and 
provide the VA with stronger oversight authority over SAAs.
    Today's hearing provides the Subcommittee the opportunity 
to follow up on the hearing and will provide the VA the 
opportunity to highlight its progress from 2 years ago; provide 
us the opportunity to learn what more can be done to ensure 
SAAs are making the best use of its limited resources; and help 
us determine if Congressional action is required to ensure our 
veterans are enrolled in educational programs where they can 
meet their educational goals.
    As many of our panel members know, the authority of SAAs 
was established by Congress in 1947 to ensure that veterans and 
eligible dependents can use the GI Bill educational entitlement 
in an approved educational program. Under contract with the VA, 
the key function of SAAs is to ensure that education and 
training programs meet VA standards through a range of approval 
entities and activities. In addition to these responsibilities, 
the SAAs' role has grown from what was first provided in title 
38, chapter 36, which will be discussed in today's hearing.
    In the last Congress, under the leadership of Chairman Bob 
Filner, we successfully provided a permanent yearly funding 
increase at $19 million. Today, we will hear from 
representatives of the SAA who are seeking additional resources 
to help them meet their obligations to our veterans and the VA.
    I look forward to hearing from all the panelists to see 
what additional resources may be warranted or, in the 
alternative, if SAAs can be streamlined to use their limited 
resources more effectively.
    I now recognize our distinguished Ranking Member, 
Congressman John Boozman, for any opening remarks he may have.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 26.]

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you, Madam Chair.
    The State Approving Agencies are VA's frontline partners in 
ensuring veterans receive quality education and training. 
Without the State Approving Agencies, additional VA staff would 
be needed to provide many of the functions now done by the 
SAAs.
    Today's higher education system is vastly different from 
that of the 1940s. For example, there is now more oversight by 
States and national accrediting agencies on all schools. There 
are now more schools, many of which have multiple campuses; 
more training programs, which also have several campuses; and 
more options, such as distance learning, to access these 
programs.
    Online education is experiencing rapid growth, and some 
fully accredited institutions have a majority of their students 
participating through online courses. And many schools now 
offer blended attendance, featuring a mix of classroom and 
online courses.
    Education and training has also experienced significant 
cost growth from the period of the first GI Bill. Using normal 
inflation rates, the $500 paid to schools and the $50 per month 
living stipend to cover all costs under the World War II GI 
Bill would now be $10,418. However, according to the College 
Board, the average tuition and fees at public institutions now 
is about $18,500.
    Last year, PL 110-389, Congress required VA to ensure that 
VA and SAAs were coordinating their functions with other 
agencies, such as the U.S. Department of Education (DOE), as a 
means to ensure that we are not having any duplication. Title 
38 also lists the statutory duties of the SAAs.
    The question is whether, given all the changes in 
education, we need to refocus the effort of the SAAs. It would 
seem to me that the public university system, or what we refer 
to as recognized leading national universities, such as those 
listed by Newsweek and other publications, need little 
additional oversight. Courses or degrees offered by those 
schools should be accepted as meeting VA standards.
    With the increased level of benefits under the Post-9/11 GI 
Bill and proliferation of nondegree and on-the-job training 
(OJT) apprenticeship programs, additional oversight of those 
programs would seem appropriate. I would also note that title 
38 allows States to add approval requirements.
    I suspect if we had a checklist from each SAA, we would 
find that, beyond the statutory requirements, significant 
variation in what they look for.
    Madam Chair, the SAAs will again begin pressing for 
additional funding beyond the $19 million currently authorized, 
and again, we look forward to hearing testimony in that regard 
today.
    We should decide what the SAAs should be, and VA should be 
a part of that process. Once we have done that, then we should 
pay them for that work.
    And with that, I yield back the balance of my time.
    [The prepared statement of Congressman Boozman appears on
p. 26.]
    Ms. Herseth Sandlin. I thank the Ranking Member and I agree 
with his statements.
    I now want to welcome our colleague, the distinguished 
gentleman from New York, for testifying before the Subcommittee 
today.
    Representative Timothy Bishop joins us to offer a very 
unique perspective from his life before Congress that will 
guide on us the work that we undertake today and as we evaluate 
what responsibilities the State Approving Agencies have had in 
the past, what they currently have, based on his experience in 
higher education.
    Thank you very much, Mr. Bishop, for joining us. You are 
now recognized.

   STATEMENT OF HON. TIMOTHY H. BISHOP, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Bishop. Madam Chair, thank you very much for the 
opportunity to be with you and with Ranking Member Boozman and 
Mr. Teague.
    I appreciate the opportunity to appear before you today to 
express my strong support for the State Approving Agencies and 
the crucial role they play in supporting our veterans.
    As the Chairwoman suggested, before I came to the Congress, 
I was a college administrator for 29 years at Southampton 
College, including for the last 16 years, I was chief executive 
of that campus. And thus I have a great deal of firsthand 
experience in working with the SAAs.
    Representatives from the New York SAA would visit the 
campus annually to assess the quality of Southampton's programs 
and ensure that our veteran students were taking full advantage 
of the academic and extracurricular activities we offered.
    Southampton College was a fully accredited institution of 
higher education, but it was very helpful for us to have an 
external quality assessment each year, and that is precisely 
what the SAAs provided.
    Throughout my career in academia, the SAAs made 
administering the GI Bill benefits easier for Southampton as an 
institution and helped us to better serve our dedicated veteran 
students.
    Today as a Member of Congress, I have a new appreciation 
for their diligence in ensuring that taxpayer dollars are 
supporting only bona fide academic programs and that veterans 
are receiving the top quality education they have earned.
    I was proud to vote for the Post-9/11 GI Bill and see it 
signed into law as the most significant veterans benefit in 
American history. The unprecedented scope of this program has 
required a dramatic increase in activity at all agencies 
responsible for administering the GI Bills, including the SAAs.
    However, the Federal commitment to the SAAs has not been 
enhanced to meet the increasing demands of this new mission 
which include: performing outreach activities to increase the 
utilization of the GI Bills; providing advice and guidance to 
veterans, Guard, Reservists and other GI Bill recipients as 
well as educators, trainers and others who counsel veterans; 
training VA school certifying officials at all educational 
institutions and job training establishments; and, assisting 
the Federal Government in eliminating waste, fraud and abuse.
    Other witnesses on the panel today will be able to detail 
more specifically how the recent freeze in funding has affected 
the SAAs. However, I believe it is clear that they have been 
asked to do too much for too many with too little. Furthermore 
the need for enhanced funding is particularly critical as the 
21st century GI Bill begins paying benefits this fall. Having 
created this landmark program, Congress must make adequate 
provision to ensure it benefits our veterans as it was 
intended.
    I am gratified that the U.S. Department of Veterans Affairs 
shares my strong support for the SAAs and views them as a 
valued partner that deserves additional support.
    Once again, Madam Chairwoman, I appreciate the opportunity 
to testify before the Subcommittee today. Like our Nation's 
veterans, the SAAs deserve the highest level of support from 
Congress, and I hope to have the opportunity to vote for an 
appropriate increase in funding for the SAAs this session.
    Thank you very much. I appreciate the opportunity.
    [The prepared statement of Congressman Bishop appears on
p. 27.]
    Ms. Herseth Sandlin. Thank you.
    Mr. Boozman.
    Mr. Boozman. I just want to thank you for coming.
    I don't have any questions, but I do look forward to 
visiting with you as we hear testimony. You really do have a 
very unique perspective, and we want to take advantage of that.
    Mr. Bishop. I would welcome that opportunity. And I look 
forward to that. Thank you.
    Mr. Boozman. Thank you for taking the time to come.
    Mr. Bishop. My pleasure.
    Ms. Herseth Sandlin. Mr. Teague.
    Mr. Teague. No, just thank you for being here, Congressman, 
and I appreciate your interest and your expertise. Thank you.
    Mr. Bishop. Thank you.
    Ms. Herseth Sandlin. We thank you for taking time out of 
your schedule. We know that you have a markup to get to. We 
look forward to working with you on this matter and continuing 
to share information that will assist us in doing right by the 
State Approving Agencies.
    Mr. Bishop. Thank you and thank you for your leadership on 
veterans issues.
    Thank you very much.
    Ms. Herseth Sandlin. Thank you very much.
    We now invite panel two to the witness table.
    Joining us on our second panel is Mr. Mark Walker, Deputy 
Director of the National Economic Commission for the American 
Legion; Mr. Raymond Kelley, National Legislative Director for 
AMVETS; Mr. Patrick Campbell, Chief Legislative Counsel for the 
Iraq and Afghanistan Veterans of America (IAVA); and Mr. Justin 
Brown, Legislative Associate of the National Legislative 
Service for the Veterans of Foreign Wars (VFW) of the United 
States.
    Welcome to all of you.
    Mr. Walker, we will begin with you.
    You are now recognized for 5 minutes. As all of you know, 
your written statements will be made a part of the hearing 
record. Keep your remarks to 5 minutes so that we have plenty 
of time for Members' questions.
    Thank you. Mr. Walker.

 STATEMENTS OF MARK WALKER, DEPUTY DIRECTOR, NATIONAL ECONOMIC 
   COMMISSION, AMERICAN LEGION; RAYMOND C. KELLEY, NATIONAL 
   LEGISLATIVE DIRECTOR, AMERICAN VETERANS (AMVETS); PATRICK 
   CAMPBELL, CHIEF LEGISLATIVE COUNSEL, IRAQ AND AFGHANISTAN 
 VETERANS OF AMERICA; AND JUSTIN BROWN, LEGISLATIVE ASSOCIATE, 
 NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS OF THE 
                         UNITED STATES

                    STATEMENT OF MARK WALKER

    Mr. Walker. Thank you. Madam Chairwoman, Ranking Member 
Boozman, distinguished Members of the Subcommittee, thank you 
for the opportunity to submit the views of the American Legion 
regarding the evolution of State Approving Agencies.
    State Approving Agencies are responsible for approving and 
supervising programs of education for the training of veterans, 
eligible dependents, and eligible members of the National Guard 
and Reserves.
    State Approving Agencies grew out of the original GI Bill 
of Rights that became law in 1944. Though State Approving 
Agencies have their foundation in Federal law, State Approving 
Agencies operate as part of State government. Effective March 
1, 2001, State Approving Agencies assumed responsibility for 
approving organizations offering tests required to secure, 
local, State, Federal, or industry based licenses or 
certifications.
    State Approving Agencies have not had an increase in 
funding in the last 4 years. However, VA was allowed to conduct 
substantial hiring to process new claims. By contrast, State 
Approving Agencies haven't been in a position to hire even 
though the Post-9/11 GI Bill workload has ballooned for these 
agencies as well. In order to carry out its expanded missions 
in light of the Post-9/11 GI Bill, State Approving Agencies 
require an additional $5 million per year for the next 3 years.
    The Post-9/11 GI Bill has dramatically changed the work 
requirement for State Approving Agencies. Adequate funding will 
provide additional staff and other resources for State 
Approving Agencies to fulfill its mission. The benefit stream 
flows through State Approving Agencies as well as the VA and 
without a fully functioning State Approving Agency, veterans 
and other benefit recipients will not receive their education 
benefits in a smooth, orderly and timely manner.
    In a GAO report in March 2007, entitled ``VA Student 
Financial Aid: Management Actions Needed to Reduce Overlap in 
Approving Education and Training Programs and to Assess State 
Approving Agencies,'' focused on the need to ensure that 
Federal dollars are spent effectively and efficiently.
    GAO recommended that VA should require State Approving 
Agencies to track and report data on resources spent on 
approval activities, such as site visits, catalog review and 
outreach, in a cost-efficient manner. Additionally, GAO 
recommended assessing the effectiveness of the State Approving 
Agencies' efforts. Finally, GAO recommended that VA should 
collaborate with other agencies to identify any duplicative 
efforts and use the agency's administrative and regulatory 
authority to streamline the approval process. The American 
Legion fully agrees with these GAO recommendations.
    The American Legion strongly supports State Approving 
agencies and is committed to working with them along with the 
VA and other Federal agencies to ensure that America's veterans 
receive the finest education and training programs so they can 
live a dignified and successful life after serving this great 
Nation. Again, thank you for the opportunity to submit the 
opinion of the American Legion on this issue.
    [The prepared statement of Mr. Walker appears on p. 28.]
    Ms. Herseth Sandlin. Thank you, Mr. Walker.
    Mr. Kelley, you are recognized for 5 minutes.

                 STATEMENT OF RAYMOND C. KELLEY

    Mr. Kelley. Madam Chairwoman, Ranking Member Boozman, thank 
you for the opportunity to appear before you today to provide 
AMVETS's views on State Approving Agencies. In March 2007, the 
GAO reported on State Approving Agencies and made three major 
recommendations.
    First, VA should require SAA to track and report data on 
resources spent on approval activities; second, VA should 
collaborate with other agencies to identify any duplicative 
efforts and use the agency's administrative and regulatory 
authority to streamline the approval process; and finally, VA 
should establish outcome-oriented performance measures to 
assess the effectiveness of SAAs.
    VA concurred with the findings and promised to find 
solutions to these issues in fiscal year 2008. However, AMVETS 
has been unable to find any indication that VA has made efforts 
to correct these deficiencies in the 2008 budget cycle or any 
subsequent year. As early as 1988, GAO reported on this issue 
of agency overlap of program approval. AMVETS believes there is 
added value to SAAs approval training and oversight role, but 
without accountability of time and resources and tangible 
outcome measures, the effectiveness and efficiency of SAAs will 
never be known.
    First, AMVETS questions the amount of time that is invested 
on program approval and review. The most recent review of SAAs' 
time allocation the AMVETS could find is from 1988. This data 
found that nearly 36 percent of SAA's time was spent approving 
and reviewing programs. This is disturbing to AMVETS in light 
of the fact that the majority of the programs have already been 
approved by other government agencies.
    AMVETS understands the unique role of SAA has in ensuring 
veterans programs are approved, but with that said, nearly 80 
percent of the all programs approved by the Department of 
Education are also approved by SAA. And by law, all 
apprenticeships must meet Labor Department standards before 
they can be accepted by VA. So even though there are unique 
factors that SAA looks at to determine eligible programs, there 
is an inherent redundancy in the approval process between SAA 
and other approving agencies.
    Nearly 2\1/2\ years have passed since VA stated they would 
initiate contact with the appropriate officials in the 
Departments of Education and Labor to identify any duplicative 
efforts, with no indication of changing their policy to reduce 
the duplication.
    Second, VA has also boasted that they diligently track 
SAA's activities. The issue AMVETS has with this tracking 
process is that SAA only tracks activities or outputs and not 
the given results or improvements--outcomes of these 
activities. Reporting how many site visits SAA has made, or the 
amount of training that was provided, only accounts for hours 
worked and not the actual results the visits and training had 
in improving the services to veterans. To truly understand the 
efficiency and effectiveness of a program, SAA must track the 
outcome measures of the work they conduct.
    It is also important to track the efficiency and 
effectiveness of a program when there are no internal controls 
over the financial assets. VA provides SAA with $19 million a 
year with no expectation that SAA report back on the use of 
these funds. The only mechanism that is in place to monitor the 
productivity of SAA is the self-evaluation and review, called 
the Joint Peer Review Group. This group meets annually to 
review each of SAA's self-assessed performances. AMVETS 
questions the sincerity of these reviews, not based on the fact 
that it is self-assessment reviewed by its peers, but by the 
fact that these reviews not accessible to the public.
    SAA lacks two key components in determining efficiency and 
effectiveness of a program: accountability of resources and 
data that shows services improved because of the program.
    In conclusion, AMVETS believes that SAA does provide value 
to veterans, but until there is oversight and accountability 
mechanisms in place, the degree of the value cannot be 
determined. It is for this reason that AMVETS recommends, 
first, that SAA begin reporting back to the VA their use of 
funds; second, that there be a real effort to identify program 
approval overlaps that take place and implement a plan on how 
SAA will eliminate the overlaps; and SAA will develop outcome 
measures for their site visits and training programs to report 
them to VA and the public and an annual joint peer review group 
report be presented to VA and the public.
    That concludes my testimony, and I would be happy to take 
any questions you have at this time.
    [The prepared statement of Mr. Kelley appears on p. 30.]
    Ms. Herseth Sandlin. Thank you, Mr. Kelley.
    Mr. Campbell, welcome back to the Subcommittee. You are 
recognized.

                 STATEMENT OF PATRICK CAMPBELL

    Mr. Campbell. Madam Chair, Ranking Member, Congressman 
Teague, thank you for the opportunity to come back and testify 
in front of you. I will be honest, when I got the invitation 
about coming to testify about State Approving Agencies, I 
didn't know very much. And this was I think a very good 
research project for all four of us here, trying to find out, 
what exactly do State Approving Agencies do.
    The topic of this hearing is the evolution of the State 
Approving Agencies. That implies looking at where we were, 
where we are, and deciding where we want to go. And I went back 
and ironically read the World War II GI Bill, which I did not 
know was only 4 pages long. And section four of the World War 
II GI Bill basically said, the State Approving Agencies were 
created just to create a list of approved programs. This was an 
advisory purpose. They would send that list up to the VA 
Administrator and say, here are some programs that veterans 
should be able to use the GI Bill at.
    Over the last 60 years, we have evolved a great deal from 
that, from not only just being an advisory role to actually 
approving over 27,000 approved VA programs, about 6,000 
colleges or degree-granting institution. Having done some 
research on the VA Web site, there are 27,000 approved programs 
that State Approving Agencies have to monitor every year. That 
is not a number I found. That is a number I had to steal from 
the VA Web site. Overall that was pretty number is impressive 
to me.
    Last year 8,700 schools had GI Bill users attend their 
schools. So we are talking about the breadth of what State 
Approving Agencies have to do. I am impressed. Now, because 
there are no performance measures, who knows how well they are 
actually evaluating those schools.
    So it started off solely as an advisory role. After World 
War II, there was a report done by a Congressman Teague in the 
1950s, that said World War II and Korean GI Bill had a major 
flaw because it paid tuition and fees directly to the school 
with very little oversight. That became a problem for the 
proprietary schools because there was not clear criteria for 
approving these programs. And they also found that there was 
some fraud, waste, and abuse.
    They cracked down on those programs by laying out the very 
rules that you see on page 2 of my testimony, saying these are 
the rules that any program that a GI Bill user will use must 
follow in order to be approved by the GI Bill program. So you 
have an advisory role. Then they had an approval role. Later 
they got added national test approval.
    What is the future of the State Approving Agencies? IAVA 
advocated very strongly on behalf of getting the new GI Bill to 
start paying tuition and fees back directly to the schools. 
That means the role of these State Approving Agencies could not 
be any more important in enforcing those approvals because they 
are the frontline defense against fraud, waste, and abuse for a 
program that costs billions of dollars every year.
    The Congressional Budget Office scored the Post-9/11 GI 
Bill at something like $62 billion over the next 10 years, and 
we are spending about $19 million a year making sure that that 
money is being directed to programs that are actually producing 
educational goals.
    This becomes an even bigger issue when you look at the VA's 
interpretation of tuition and fees. The VA has pretty much 
created a vacuum for schools to operate however they want. This 
is not a knock on the VA, but right now, the tuition and fees 
part of the Post-9/11 GI Bill is based on self-reporting. You 
get tuition based on whatever you claim is tuition. You get 
fees based on what you claim is fees. You get tuition and fees 
based on how many credits you deem are credits or how many 
terms you deem you have. There is a lot of wiggle room there, 
meaning that if you decided you didn't want to charge tuition 
anymore but you wanted to start charging fees in a State like 
Colorado, you could get $47,000 in one term but only be 
enrolled in one credit just by changing the name of what you 
call the education benefit.
    Now $19 million is not a lot of money when you start 
comparing how much money they could be saving as soon as the VA 
decides what these criteria should be for. What is a credit? 
What is a term? What are fees? What is tuition?
    What is the evolution of the State Approving Agency? 
Advisory to approval, and next, they are going to have to be 
the enforcement agency. They are going to have to go after 
these schools that are operating in this vacuum right now and 
lay down very clear standards for how the Post-9/11 GI Bill 
should be implemented.
    Thank you very much.
    [The prepared statement of Mr. Campbell appears on p. 31.]
    Ms. Herseth Sandlin. Thank you, Mr. Campbell.
    Mr. Brown, you are recognized for 5 minutes.

                   STATEMENT OF JUSTIN BROWN

    Mr. Brown. Thank you, Chairwoman.
    Madam Chairwoman and Members of this Subcommittee, on 
behalf of the 2.2 million members of the Veterans of Foreign 
Wars and our auxiliaries, I would like to thank this Committee 
for this opportunity to testify.
    The issues under consideration today are of great 
importance to our members and the entire veteran population.
    State Approving Agencies were created following the passage 
of the Servicemen's Readjustment Act 1944 to help administer 
the benefit well; assisting the Federal Government in 
preventing waste, fraud, and abuse; maintaining a high-quality 
learning experience for veterans utilizing Federal benefits; 
and assisting veterans transitioning from the military into the 
civilian sector.
    The mission of the State Approving Agencies has changed 
relatively little until recently. However, multiple recent 
legislative changes have increased and broadened their scope 
and mission. The most notable include the passage of the Post-
9/11 GI Bill, and in 2001, State Approving Agencies were given 
the role of actively promoting the development of 
apprenticeships, on-job training programs, and the approval of 
tests used for licensing and certification.
    The legislative action in 2001 was followed with a funding 
increase in fiscal year 2003 from $13 million with a graduated 
increase to $19 million by fiscal year 2006, their current 
level of funding. In consideration of inflation, State 
Approving Agencies' funding levels have continually eroded 
since their last increase in fiscal year 2006. While Veterans 
Affairs have been amply funded and allowed time to prepare for 
the Post-9/11 GI Bill, State Approving Agencies are operating 
at the same level of funding for their fourth year.
    Without a similar increase in resources, certain 
responsibilities will be neglected, thereby decreasing the 
program's overall quality for veterans and reducing the 
insurance of a quality investment for our Federal Government. 
For the GI Bill to remain the first rate program it is today, 
State Approving Agencies must have the necessary funding to 
maintain their critical mission.
    The VFW believes that it is especially important to 
emphasize the increased potential for waste, fraud, and abuse 
of this benefit. The changes in the rate-of-pursuit schedule 
and the yellow ribbon program leave the possibility of large 
overpayments or underpayments to veterans attending school.
    Moreover, the National Association of State Approving 
Agencies has singled this issue out as perhaps its most 
manpower-intensive mission considering the changes due to the 
Post-9/11 GI Bill.
    If left unattended, overpayments not corrected for a long 
period of time could prove devastating to veterans at no fault 
of their own. Overpayments are typically drawn from future 
payments to veterans and may leave them with less than adequate 
funding to maintain their livelihood. Veterans depend on the 
benefits process to get it right the first time and State 
Approving Agencies play a crucial role in the process.
    The VFW hopes to see a vigilant staff at both the State and 
Federal levels with adequate resources working to ensure a 
smooth, seamless administration of the Post-9/11 GI Bill, with 
little or no effect on the quality of other programs and 
missions.
    There is no question that the Post-9/11 GI Bill is a 
complex benefit. Moreover, within the next few years, it is 
likely that there will be legislative changes to the Post-9/11 
GI Bill that will require additional outreach and training. 
State Approving Agencies are behind the curve in funding, have 
an expanded mission, and are losing time to train and implement 
resources that come with an increase in funding.
    In conclusion, the VFW strongly supports the National 
Association of State Approving Agencies' request for an 
additional $5 million per year for a total of $24 million per a 
fiscal year. The VFW believes this would prove sufficient for 
the State Approving Agencies' newly expanded workload. The VFW 
also requests any increase be tied to a cost-of-living index to 
reduce the gradual deterioration of the benefit.
    Madam Chairwoman, this concludes my testimony. I am happy 
to answer any questions you or the Members of this Subcommittee 
may have. Thank you.
    [The prepared statement of Mr. Brown appears on p. 34.]
    Ms. Herseth Sandlin. Thank you, Mr. Brown.
    My first question will go to each of the witnesses on this 
panel. Since the Department of Education and the Department of 
Labor already approve a big portion of the programs, then to 
avoid work duplication, should the State Approving Agencies be 
limited to approving programs not approved by the Federal 
agencies?
    Mr. Walker.
    Mr. Walker. We would view that the SAAs should still be 
involved with this process. I think school officials as well as 
veterans kind of understand their role, and I think it would 
still be beneficial for SAA along with their expertise to be 
able to handle that as well.
    Ms. Herseth Sandlin. Can you elaborate? Is there something 
that the SAAs can do in approving a program that the Department 
of Education or the Department of Veterans Affairs or the 
Department of Labor couldn't do?
    Mr. Walker. Well, we don't think that--I guess you would 
say there is some overlapping. But we have just seen that, 
based upon what we are hearing, is that basically SAA has done 
a good job with that. And I guess we need further time to 
research more of that to give you a more concrete answer.
    Ms. Herseth Sandlin. Okay.
    Mr. Kelley.
    Mr. Kelley. SAA needs to continue their oversight role and 
their approval role. But they do need to take time and maybe 
build a metrics of things that are overlaps so they do not have 
to duplicate those services.
    So on a site visit, part of--the Department of Education 
and SAA look at the facility, make sure it an adequate 
facility, that the right equipment is in the facility. If both 
of them are doing that, that is time and man-hours spent that 
don't need to be spent. There needs to be a metrics put 
together that says, if the Department of Education has already 
approved this, that means we can forgo these steps and go 
directly to this step. They still need to be involved in each 
and every approval, but they can take steps to reduce the 
amount work they do on the ones that have already been 
approved.
    Ms. Herseth Sandlin. Okay. I may come back to you, but I 
appreciate that.
    Mr. Campbell.
    Mr. Campbell. State Approving Agencies review every 
program, do a site visit 1 to every 3 years. I think that site 
visit not only has a purpose of reviewing the school but also 
developing a relationship with the people there. By developing 
that relationship, they then become the expert on the GI Bill. 
And then when that school goes to implement--this new GI Bill 
is not easy at all----
    Ms. Herseth Sandlin. Let me interject. Are you aware of 
whether or not the Department of Education--is not taking those 
same steps.
    Mr. Campbell. According to the GAO, accrediting agencies 
visit school sites every 2 to 10 years, and the Department of 
Education only visits schools that have been listed as having 
performance issues. So the comparison is the SAA will be there 
1 to every 3 years.
    Ms. Herseth Sandlin. If there are performance issues?
    Mr. Campbell. No, the SAA will be there 1 to every 3 years 
regardless. The Education Department will only be there if 
there is a performance issue.
    The accreditation may not be there for 10 years. And I have 
actually served on an accreditation team before. They are a lot 
more thorough than I would imagine the SAAs are, but they 
happen on a--you get a 6- to 10-year approval, then you don't 
do anything. You don't start thinking about them until you are 
almost at year 8.
    Ms. Herseth Sandlin. Let me throw out a hypothetical 
question, because I have been through the accreditation 
process, too.
    Do we need State Approving Agencies then to visit every 1 
to 3 years for programs to be approved at Harvard, Yale, 
Georgetown, or Stanford?
    Mr. Campbell. I think it makes sense--you would think that 
Harvard and Stanford and Yale, they are not going to want to 
lose their accreditation. They are going to want to be doing it 
right. But as soon as that State Approving Agency walks onto 
that campus, the first person they are going to want to meet is 
that VA certifier.
    Ms. Herseth Sandlin. So you maybe agree with Mr. Kelley 
then, if we can develop the measurements in a way where the 
State Approving Agencies are maintaining a relationship; they 
do not have to be duplicative, though in terms of spending 
their resources to approve programs where the Department of 
Education has gone and approved them. Are you saying that there 
should be no change or modification to the approval?
    Mr. Campbell. There actually already is. This is actually 
in my testimony. I can't say that I am responsible for this. 
Connecticut State Approving Agency created a chart that says 
there are very different criteria that they use for accredited 
and non-accredited schools already. I would be willing to 
tinker with that and make sure that that is as streamlined and 
efficient as possible.
    This is the Code of Federal Regulations (CFR). This is 
actually in the CFR right now. There is a distinction between 
accredited and non-accredited schools.
    Ms. Herseth Sandlin. Are the State Approving Agencies 
following it?
    Mr. Campbell. That is a remarkably good question.
    Ms. Herseth Sandlin. That goes to Mr. Kelley's point.
    Mr. Campbell. Mr. Kelley's point of the self-review. The 
paper has not been published, and we have not seen it.
    Ms. Herseth Sandlin. Mr. Brown.
    Mr. Brown. I would echo a lot of the same responses, the 
most obvious being that the SAAs are more frequently visiting 
the schools. But I am also hesitant to comment before I hear 
the later panels and hearing what they have done since the 2007 
GAO report.
    Ms. Herseth Sandlin. But you are not aware whether or not 
all of those recommendations have been implemented?
    Mr. Brown. Right.
    Ms. Herseth Sandlin. Mr. Boozman.
    Mr. Boozman. Thank you.
    Mr. Kelley, I think, brought up a good point with the 
metrics. I guess what I would like for you all to comment on a 
little bit along that regard, we are talking about whether or 
not we need to increase funding, but I guess it does make sense 
to put some things in place before you do that. Does that--can 
you all comment on that, in the sense of putting some metrics?
    The other thing is, there is finite resources available, 
and these resources take away from other things that we are 
trying to get done. And at some point, do the resources go to 
preventing waste, fraud, and abuse, as opposed to just kind of 
doing things because we have always done them for the last 
however many years?
    Mr. Kelley. I will start, I guess.
    Ray Kelley from AMVETS.
    I can't say how much the SAA needs to fund. It may be $19 
million, it may be $40 million to run their operation 
correctly, to provide the services that they need to provide. 
And I think they are critical services. But until they start 
reporting back how they are spending their money and until they 
show that they are not going to do duplicative services, until 
they can prove that the reports that they do are accurate and 
that they are open to the public, then I am hesitant to 
increase any funding at this point.
    Mr. Campbell. And I just think that any new role for the 
State Approving Agency must have some type of review for the 
tuition and fees part of the new GI Bill. That is something 
that has a huge open hole, and so, in addressing that, that is 
the people who would be the best position to monitor it and 
make sure that there is not fraud, waste and abuse, giving them 
the tools and the guidelines they need and tasking them with 
making sure that those are happening.
    Mr. Boozman. But the actual monitoring be transparent.
    Mr. Campbell. I definitely think that that report needs to 
be--you can't have an agency who is accountable without 
transparency. We say that about the VA in all steps.
    Mr. Brown. I would agree with that. We haven't seen the 
Joint Peer Review Group report either. And that seems to be the 
report, if you will, that has all the performance measures.
    But I would argue that I also have not seen anything that 
would suggest that they are also overfunded. And in 
consideration of the new Post-9/11 GI Bill, their mission is 
going to dramatically expand. I can just picture how much time 
they are going to be spending on the phone and in the offices 
educating people. All the meanwhile, while they are having 
these conversations, we are probably going to see a decline, in 
my opinion, probably on the quality assurance side. They are 
not all Harvards and Yales. And you are going to have, because 
of the increased amount of money with the GI Bill, you are 
going to have a lot more people trying to apply to get on these 
registers as well.
    Mr. Boozman. Well, thank you, guys. As always, that is very 
helpful.
    Ms. Herseth Sandlin. A couple more questions.
    First, recognizing, Mr. Brown. You just said that you are 
not aware that the SAAs are overfunded. One of the things we 
are trying to get at here is how resources are allocated and 
how they could be better allocated within the work that the 
SAAs do.
    I am informed by counsel that some State Approving Agencies 
in each of the last 3 years have returned money. I am not 
stating that they are overfunded. It is just, without metrics, 
how do we know how to better allocate those resources if they 
are returning money because they are restricted on how they can 
use that money to do other things?
    Mr. Brown. If I could ask a question----
    Ms. Herseth Sandlin. Well, hold it for 1 second. I will 
come back to you before I wrap up; I want you to pose that 
question to you.
    But this issue of the SAAs and the work that will be 
required of them as the new GI Bill is fully implemented, the 
VA has been authorized to hire temporary employees. What are 
your thoughts on the State Approving Agencies, to be able to 
get over this initial hurdle of implementing a complex new 
benefit, that is not going to get any less complex but 
hopefully will get easier as everyone is used to it. Any 
thoughts on the SAAs being authorized to hire staff on a 
temporary basis rather than permanently expanding a budget or 
activities without those metrics?
    Mr. Brown. Madam Chairwoman, I don't think the VFW would be 
averse to that so long as, once that temporary funding was 
gone, their mission also narrowed. The education had all been 
out there, there was enough outreach, everyone understood the 
new GI Bill, and they were back to their original mission, I 
don't think we would have a problem with that.
    Mr. Campbell. I could see partial temporary increase and 
then some permanent increase. The reason why, I don't think the 
tuition and fee oversight role is going to go away any time 
soon. But I do see the outreach part of it being a huge 1- to 
2-year increase.
    I can be honest, I am trying really hard to get the word 
out about the new GI Bill as much as I can. I know Keith Wilson 
is doing his best. There are just too many people asking 
questions. If we wanted to make their outreach portion, their 
education portion temporary, but having their tuition and fees 
reviewed, that needs to be on a more permanent basis.
    Mr. Kelley. This may be the first time ever that I 
completely agree with Patrick Campbell.
    Mr. Campbell. His daughter is here, so mark that down.
    Mr. Kelley. The continuation of reviewing, each year the 
university can say they are going to change their tuition and 
fees, and there needs to be oversight on that. And the only way 
to do that is with permanent people. You cannot say, okay, we 
are over the hump of getting all of these programs up and 
running. Each year after that or each semester after that, the 
university can change that.
    So that, long term, is probably where to go. But again, 
AMVETS would like to see how money is being spent before we 
allocate more.
    Mr. Walker. And we would, the Legion would consider this 
temporary thing, but we also would go more long term to make 
sure that the veterans are receiving the training and education 
programs that they need. We would be more toward long term, but 
we would consider the temporary aspect.
    Ms. Herseth Sandlin. Mr. Brown, you had a question?
    Mr. Brown. You had said that some States had returned 
money, but I believe, from what I heard, but again, I haven't 
seen the reports, that some States also required additional 
funding.
    Ms. Herseth Sandlin. That is what we are going to try to 
get at with Mr. Rowe's testimony. But that raises the question 
that, without the data, without the information that Mr. Kelley 
rightfully articulated in his testimony, is necessary to help 
guide the decisions as to whether or not we work to help secure 
additional funding. How they are using their resources when 36 
percent of their time is to approving and reviewing programs 
when a majority of that is already approved by other agencies. 
How can we address what we think may be duplicative but at the 
same time either eliminate restrictions that result in some 
SAAs returning money or more focus the work so that those that 
are requesting more money actually have the resources, because 
they are not putting it into duplicative work.
    Mr. Boozman, anything final for this panel?
    Okay. I thank all of you gentlemen and your ongoing 
commitment to a variety of issues, some familiar, some slightly 
new, that we are looking at in this new environment of 
implementing the new GI Bill.
    I would now like to invite the next panel to the witness 
table.
    Ms. Herseth Sandlin. Joining us on our third panel is Mr. 
Charles Rowe, President of the National Association of State 
Approving Agencies (NASAA), who is accompanied by Mr. Dan 
Wellman and Mr. Skip Gebhart, both Deputy Legislative Directors 
of the National Association of State Approving Agencies; and 
Mr. Keith Wilson, the Director of the Office of Education 
Service, Veterans Benefit Administration, U.S. Department of 
Veterans Affairs.
    Gentlemen, welcome to the Subcommittee. We look forward to 
your testimony.
    Mr. Rowe, you are now recognized for 5 minutes.

STATEMENTS OF CHARLES ROWE, PRESIDENT, NATIONAL ASSOCIATION OF 
 STATE APPROVING AGENCIES; ACCOMPANIED BY DAN WELLMAN, DEPUTY 
 LEGISLATIVE DIRECTOR, NATIONAL ASSOCIATION OF STATE APPROVING 
 AGENCIES; SKIP GEBHART, DEPUTY LEGISLATIVE DIRECTOR, NATIONAL 
 ASSOCIATION OF STATE APPROVING AGENCIES; AND KEITH M. WILSON, 
   DIRECTOR, OFFICE OF EDUCATION SERVICE, VETERANS BENEFITS 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

                   STATEMENT OF CHARLES ROWE

    Mr. Rowe. Madam Chairwoman, Ranking Member Boozman, Members 
of the Subcommittee, I am pleased to appear before you today on 
behalf of the National Association of State Approving Agencies 
to provide a historical perspective and overview of the current 
role SAAs are playing in approving and implementing the Post-9/
11 GI Bill.
    I have an executive summary to read, but some of the issues 
that were brought up and, if I might, I could address some of 
those issues from the previous panel.
    One of the things that I would like to correct is that the 
Department of Education does not in fact approve any programs 
of education. I don't know where that comes from. The 
Department of Labor does register programs in States. And in my 
State, since we have overview of all of those issues, if a 
registered apprenticeship wants to enroll a veteran in a 
program, my experience over the past 7 or 8 years is that they 
will call me first because they have no idea what to do. I have 
had, occasionally, some individuals who will take it upon 
themselves to send in the required paperwork so the VA can 
process an apprentice, and most of the time I find that it was 
done incorrectly and doesn't meet the VA standards, and the 
result is that the veteran doesn't get his benefits on time, 
and I have to go redo the work anyway. So that is one thing I 
wanted to say about what that does.
    I would like to say also about the accreditation process, I 
am not opposed to it. It is in addition to what it is that I 
think our role is. But I would like to point out that it is a 
peer review.
    As you know, Madam Chairwoman, you said you have been part 
of teams. You know, it is academic types reviewing other 
academic types, most of the time in the same region. And so I 
wonder sometimes what happens there. And they don't really look 
at approved programs that I know of; the accreditation reports 
that I have read don't really have that.
    The other thing I would like to tell you about is a short 
story that was told to me once. In New Jersey, Princeton 
University has been there hundreds of years, an Ivy League 
school. On one of my supervisory visits, I sat with Dr. Joseph 
Greenberg, who has since passed away, and he told me a story 
one time that he was at a cabinet level meeting of the 
President. At the time, it was Dr. Shapiro, and they were 
sitting around the table talking about how great Princeton is. 
And Dr. Shapiro asked all his cabinet Members, does anybody 
review what we do besides us? I know, we are Princeton, and we 
are Ivy League, and we are the best in the country and all of 
that. And Dr. Greenberg told me, and I raised my hand, yes, Dr. 
Shapiro, every year the State Approving Agency comes here and 
reviews all of our undergraduate and graduate programs and kind 
of gives them a blessing. And he said, thanks, I think that is 
important that somebody else reviews what we do every year and 
what we offer our students.
    I wanted to offer you that story, it is a true story, 
because I think it is important to recognize that, even though 
that institution has wonderful stature, they still value the 
role that we play on campus.
    Having said that, I would like to address one of the other 
things about returned money. I am one of those States that 
returned money for the last 2 years. The reason that is so is 
because, when Governor Corzine came into office, the first 
thing they did was freeze everything, like happens in a lot of 
States, so I haven't been able to hire anyone for the past 2 
and a half years. Therefore, I am operating--I should have, 
according to the framework the VA has, I should have four 
professional staff members and two support people. I have been 
functioning with three, including myself as the director, and 
one support person for the past 2\1/2\, and I think it is going 
to continue that way.
    So that is why we have in fact given back money, and I am 
sure that is happening in other States, too. Right now, I am 
probably going to be giving back more money this year because 
our union has agreed to a furlough time. We have to work 10 
days in this coming--no, we cannot work 10 days in the coming 
year, no pay, so that means I can't bill the VA for time that I 
don't draw a salary. I will be in fact turning back more money 
this year, and most of those things, I have no control of any 
of those situations.
    I just wanted to correct--I didn't want to correct; I 
wanted to make a statement in response so I wrote some of those 
things down. I firmly believe, in the remaining time I have, I 
believe that the ongoing training, education and outreach 
efforts that are going to be required for the Post-9/11 GI Bill 
have been stated by panel, and I agree with most of the things 
they said.
    I, too, am very concerned about the overpayments that are 
going to be generated by not knowing, really, what to do about 
how to process things and who is going to do those things. I 
have said in my State that there are people asking questions, 
and I am more concerned about the people who are not asking 
questions, because I don't know what they are doing.
    Thank you, Madam Chairwoman, glad to answer any questions.
    [The prepared statement of Mr. Rowe appears on p. 36.]
    Ms. Herseth Sandlin. Thank you, Mr. Rowe.
    Mr. Wilson.

                  STATEMENT OF KEITH M. WILSON

    Mr. Wilson. Good afternoon Chairwoman Herseth Sandlin, 
Ranking Member Boozman, Members of the Subcommittee. I 
appreciate the opportunity to appear before you to discuss VA 
education benefit programs and the role of the State Approving 
Agencies.
    My testimony will highlight the role of the SAAs in serving 
the needs of VA and our Nation's veterans. I will specifically 
address program services, staffing oversight, SAA outreach 
activities, and funding provided by the Post-9/11 Veterans 
Education Assistance Act 2008.
    VA and the SAAs work together to ensure successful 
readjustment of veterans to civilian life through educational 
opportunities. VA administers educational assistance to 
eligible veterans and dependents while the SAAs ensure the 
quality of the education and vocational programs pursued and 
monitor the institutions providing education and training to 
veterans.
    They also conduct outreach programs and provide outreach 
services to eligible persons and veterans about education and 
training benefits that are available. Under contract to VA, 
SAAs ensure that education and training programs meet Federal 
VA standards through a variety of approval activities, such as 
evaluating course quality, assessing school financial 
stability, and monitoring student progress. VA currently has 
contracts with 57 State Approving Agencies.
    The current SAA staffing levels are adequate based on the 
number of active facilities in each State. VA's focus, however, 
is on outcomes. Therefore, VA primarily concentrates on whether 
or not contractual obligations are met and less on the specific 
staffing levels utilized to meet those requirements.
    The fiscal year 2009 SAA contracts were revised to require 
the SAAs to provide outreach visit reports to VA. In addition, 
VA requested SAAs to complete an outreach questionnaire in 
April 2009 on specific efforts related to the Post-9/11 GI 
Bill. The questionnaire responses and the outreach visit 
reports indicate that the SAAs overall are performing 
aggressive outreach for the Post-9/11 GI Bill.
    VA has enjoyed a longstanding positive relationship with 
the SAAs. As with any relationship, however, we are continually 
engaged to identify areas for improvement. The SAAs' mission is 
clearly defined in statute. The SAAs have contributed to the 
administration of education programs relatively free of waste, 
fraud and abuse. Both VA and the SAAs are proud of that 
success. As VA education programs in the education community 
change, we look forward to meeting future challenges.
    The Veterans Benefits Improvement Act of 2008 provides the 
Secretary shall take appropriate action to ensure the 
coordination of approval activities performed by SAAs and 
approval activities performed by the Department of Labor, 
Department of Education and other entities in order to reduce 
overlap and improve efficiency. In its July 2009 report to 
Congress, ``Coordination of Approval Activities in the 
Administration of Education Benefits,'' VA recommended 
legislation that would give the Secretary authority to act on 
any findings of duplicative efforts.
    For example, section 3672 provides that a veteran or 
eligible person may receive educational assistance under the 
program as approved by SAAs. Approving a program is separate 
and distinct from an accreditation process otherwise in place 
or required for an institution.
    By statute, the SAA must review programs of accredited 
institutions and determine if they meet the approval criteria 
in Section 3675.
    We believe, for example, expanding the Secretary's 
authority to accept registered apprenticeship programs or 
flight approvals from the Department of Labor or the Federal 
Aviation Administration would enable more effective use of SAA 
resources.
    The VA also suggests in the report that chapter 36 be 
amended to give the VA discretion to accept certain programs, 
such as programs offered by accredited public institutions, 
without specific SAA approval unless VA determines it is 
necessary to seek such approval.
    Such amendments, if enacted, could streamline the statutory 
responsibilities of the SAAs and allow for more effective 
utilization of existing resources.
    The VA further recommends that chapter 36 be amended to 
authorize the Secretary to utilize the SAAs for compliance, 
oversight, and more aggressive outreach activities as the 
Secretary deems appropriate. We believe the proposed amendments 
would be cost neutral, since the funding currently used to 
approve programs would continue to be utilized to enhance 
outreach, compliance, and oversight activities.
    Madam Chair, this concludes my statement, and I would be 
pleased to answer any questions that you or any Member of the 
Subcommittee may have.
    [The prepared statement of Mr. Wilson appears on p. 44.]
    Ms. Herseth Sandlin. Thank you both.
    Mr. Wilson, toward the end of your testimony you addressed 
one of the questions that I was going to direct to both of you. 
But I would like to go back to the GAO report and the 
recommendations that were made in March of 2007.
    Mr. Rowe, have the State Approving Agencies or the VA, in 
your experience, acted on those recommendations?
    Mr. Rowe. Did you have a specific one that you are getting 
at?
    Ms. Herseth Sandlin. Any? Did you act on any?
    Mr. Rowe. Last contract year the VA asked us to keep track 
of certain activities, and we reported those on a monthly 
basis. I cannot say what they did with the data, but through 
our national association, Madam Chairwoman, to my left is Mr. 
Gebhart, is from West Virginia, and I will let him speak to 
that question if you would rather, but we have been under way 
for the last 6 to 8 months on what we consider to be a true 
outcomes-oriented measures of what we are doing.
    We are a little preliminary on that, but I would let Mr. 
Gebhart address that if you liked to at this point.
    Ms. Herseth Sandlin. I would like you to address it, but 
before, let me just seek some clarification. Is this outcome 
measures something that you have initiated or Mr. Wilson at the 
VA initiated.
    Mr. Rowe. It is a NASAA initiative. We started it in our 
association. I thought it was important. I have been President 
for 2 years, and I thought it was important back in 2007 when I 
became president, that we not ignore those things, but I knew 
they would come up again. So I have been searching for the 
right person, and Skip is the right person, as far I know, from 
anybody who tells me more. We have had a couple Subcommittee 
meetings on it, and Skip is now in charge of that Subcommittee.
    And like I said, it takes time to develop these measures. 
It is not just simply counting things. It is what is--you 
really want a true outcome, what is the outcome of what we do. 
It is a difficult question to ask, but we are under way in 
doing that.
    Ms. Herseth Sandlin. Mr. Gebhart, would you like to speak 
more to your work?
    Mr. Gebhart. Thank you, Madam Chairwoman.
    We, as Mr. Rowe said, looked at the GAO report and said, we 
need to be doing this ourselves. We need to do it for our 
purposes. We need to do it for VA's, and we need to do it for 
yours.
    Outcome measurement is an extremely useful but extremely 
complicated thing to do in a nonprofit organization such as the 
SAAs and such as government, but we have identified, I think, 
about 16 potential outcomes from the work of the SAAs.
    For example, we currently say, ``how many approvals do we 
do in a year?'' That is a count of how many times we say a 
program is approved. And that can be thousands in some of the 
larger States, but it is a meaningless number in essence. It 
says we have looked a 1,000 programs, but it doesn't say what 
happens because of that.
    An outcome for that sort of thing would be, for example, 
``veterans have access to quality programs.'' That is the 
outcome that we are trying to achieve by looking at the 
programs and saying, ``do they meet the criteria of the law?'' 
``Do they meet educational criteria?'' So we are saying, we may 
look at a thousand but the outcome is ``better programs for 
veterans to use.''
    We do a lot of training and consulting with certifying 
officials at the schools. We count that. Every time we do a 
workshop, we report that we have done a workshop, but that is a 
meaningless number in essence, because the question is, ``so 
what?'' You did the workshop; what happens as a result? An 
outcome of that would be that schools' reporting accuracy 
improves. Certifying officials know more about what to do and 
how to do it, so their reporting improves. That is the outcome 
that we are looking for with our training.
    Supervisory visits are another work element that we count. 
The number of visits is meaningless, but what happens because 
of them is the outcome we are looking for. That would be things 
like ``problems and discrepancies are discovered more 
quickly.'' We are out there once a year. VA is out about every 
3 years. So we are finding the errors sooner than VA in many 
cases, and we work with our VA counterparts to make sure that 
they know what we find and vice versa, so that we are both 
working together to reduce the number of discrepancies and 
overpayments and, therefore, fraud waste and abuse.
    The challenge is measuring all of these things. That is 
what we are working on now.
    Ms. Herseth Sandlin. I appreciate that you have undertaken 
that effort.
    Mr. Wilson, has the VA acted on the third recommendation in 
the GAO report? Are you working in any way in consultation with 
what the SAAs have undertaken on their own initiative?
    Mr. Wilson. They have their own initiatives under way, and 
I applaud them.
    We have also been engaged with them to come up with 
specific measures. The fiscal year 2009 period, performance 
contract period, which is for fiscal year 2009, did have a 
series of very specific performance measures, outcome measures 
in the contracts.
    Just a few of the examples: timely response to program 
approval inquiries; 95 percent of the responses are to be 
completed within 14 days, for example. And there are several 
other measures that are largely based on timeliness, 
responsiveness to desires for program approvals, or inquiries 
or denials that can ultimately turn around in approvals.
    Ms. Herseth Sandlin. I will have more questions, but I will 
turn it over to Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    To the SAAs, has the VA provided sufficient training to 
help implement the new Post-9/11 GI Bill? Have they given you 
enough to work with?
    Mr. Rowe. Well, I could speak as a director, Mr. Boozman. 
And when I think something is necessary, sometimes, I can--or 
sometimes I have since the beginning of this year, 
particularly, as requests have come in, as you have heard from 
the other panel members, I have suspended some of the other 
things that we normally would do because I thought it was more 
important to spend my resources on getting this kind of stuff 
done.
    They don't really--VA doesn't really monitor a weekly, 
monthly basis what it is we do. We submit a quarterly report, 
and it is numbers. And in those numbers, sometimes are allowed 
to put a narrative, and we put a narrative, places we have 
gone, things that we have done.
    But--so I am going to say that I have done some activities, 
not questionable, but in my mind that were necessary. And so, 
therefore, I kind of delayed some other things and kind of mush 
them around as much as you possibly can to accomplish the 
requests from institutions, from veterans, from Guard members, 
from my own people in the State.
    Did that answer your question, sir?
    Mr. Boozman. Well, I guess really what I am trying to get 
at, are the SAAs nationwide, are they trained enough to 
implement the new GI Bill?
    Mr. Rowe. I think we are. I think the VA has done, I have 
been to a few of the things that Keith and people in his shop 
have done. And I think they have provided some very valuable 
information. I attended a big conference they had in 
Cincinnati. There were over 500 certifying officials in that 
room, and the team that was there spent a good deal of time 
talking about the various intricacies, and as you know, it is a 
very intricate program. So I would say, yes.
    Mr. Gebhart. I could echo that.
    Mr. Wellman. Congressman Boozman, I concur. I think the VA 
has done a very good job distributing information to the SAAs, 
providing us with training. We have had three Webinars that 
were specifically designed for State Approving Agencies. A 
couple of hours of training. I think there is probably more 
forthcoming. They have put out a lot of information on the Web 
sites, and I think they have done a good job of disseminating 
information about the Post-9/11 GI Bill to the SAAs.
    Mr. Boozman. Very good. We appreciate you being here. My 
counsel tells me that you are from his hometown also of West 
Point, Iowa. And that is kind of unusual to have two West 
Point, Iowa, people, I am sure, at a Congressional hearing at 
the same time. And then I think you have got your son Elek with 
you also. Where is he? Very good. Good to have you here.
    Mr. Wilson, you mentioned the contract and things. And I 
think what we are trying to do is really see what metrics, what 
accountability is in place. Can you mention some other things 
that you are trying to do?
    Mr. Wilson. In terms of the specific performance measures 
for 2009?
    Mr. Boozman. Sure.
    Mr. Wilson. Just a sample of some other metrics in place 
right now: initiate corrective action required as a result of a 
supervisory visit, 95 percent of those within 10 days; timely 
follow-up involving corrective actions, 95 percent within 30 
days; timely follow-up on denial of benefits to veterans by VA, 
95 percent within 10 days.
    So what we are trying to focus on in 2009, which really was 
our first incarnation of going to an outcome measure is 
focusing on the timeliness. Because so much of what we do is 
critical to the veteran because they are basically dependent on 
our benefits month to month. And because of the timing for 
benefit payments, obviously, that is important.
    Mr. Boozman. Very good.
    I appreciated your story, Mr. Rowe, again I can see the 
merit in reviewing a place like Princeton periodically, and yet 
I guess our problem is that we are concerned about who is 
reviewing the reviewer. And that is really what we are trying 
to do today is make sure that we have some accountability 
there. I think we all need that.
    I have got it every 2 years with the voters. And like I 
said, that is our job.
    And so, hopefully, working together we can get some good 
metrics to do what we all want to do, and that is serve 
veterans.
    Thank you very much.
    Ms. Herseth Sandlin. Just a few more questions.
    Mr. Rowe, in your written testimony, on page four this goes 
to the points that you were making to some of the responses to 
my questions on the second panel in terms of returning money 
and why that may be necessary. But in your testimony, you state 
that many times these shortfalls can be met if the opportunity 
to use remaining Federal funds is available through the 
supplemental process. Can you elaborate more what you mean by 
that?
    Mr. Rowe. Sure. I can or Mr. Wilson can. The VA allows or 
they state an up front contract figure that you are allowed for 
that fiscal year. You are allowing to draw down a 
reimbursement, request for reimbursement for your costs 
associated with that. If you do not have costs, in other words, 
if you have a $500,000 contract but you only spent $400,000, 
that means the State doesn't get to keep the money, because as 
you know, it is a cost reimbursement. At some point in time, 
the State, once they feel comfortable that their bills are 
going to be met, the VA will ask, are there any funds that you 
are not going to use this year. And at some point in time, 
depending on my fiscal people saying, okay, you can do that, we 
tell the VA those moneys are now available for other States who 
need additional resources.
    Last year I think it was 18 States that needed additional 
resources. And so, then, the VA would decide or should decide 
how they are going to meet those 18 requests from the people 
who turned money back in.
    Ms. Herseth Sandlin. Okay. To the situation that you 
described in terms of why in your office you had to return 
money, if we were to authorize spending at a higher level for 
State Approving Agencies and the contract was higher than you 
got from the VA, would there be anything that Congress could do 
to address any of your concerns? You described those conditions 
but if there is a hiring freeze, there is nothing we can do 
about that. It seems that this goes back to the 
responsibilities as we define them for the SAAs and how we 
would like to use some metrics to better fashion what the 
contractual obligations would look like in light of either new 
needs that you are providing, can you just comment on that? I 
was interested in what you described and why that is a reason 
for some of the funds.
    As I stated in my question, I am not trying to suggest that 
you are overfunded. As you may recall, I helped lead the charge 
on getting the permanent ceiling moved up to $19 million, and 
before I lead a charge to getting more money, I want to make 
sure that we have the information that backs up that request. 
So maybe you could comment on that.
    Mr. Rowe. Sure, I would like to, I can't speak for how 
close we are, how close the SAAs were for spending the $19 
million last year. I don't have that information. Mr. Wilson 
might.
    But I could say, we are going to get very close very soon. 
And I can't predict what is going to happen in the future. My 
Governor may decide, you can hire X amount of people next year. 
He could lift that hiring freeze at any point. We could have a 
tremendous surge in new eligible persons.
    I know, in my State, I work in Military Veterans Affairs, 
and we just had 3,500 new Guard members, probably most or all 
are entitled to some benefit level under that program. And that 
is going to mean a tremendous amount of new people involved in 
all the programs that we already have. I don't know how I can 
predict how I am going to meet that need at this point in time.
    Ms. Herseth Sandlin. I appreciate that, and working closely 
with our State department of military affairs, I know that you 
are in a very good position to be reaching Guard and 
Reservists. Probably better than what some of our Federal 
agencies have been able to do, given the problems that we have 
had with the U.S. Department of Defense doing mailings about 
benefits and I think some of the issues that we have seen maybe 
even with the VA and the Department of Labor, although that 
varies from State to State as we have seen.
    Mr. Wilson, I think you elaborated in your initial 
testimony, you had looked at sort of the issue of possible 
duplication. Mr. Rowe provided in terms of DOE not approving 
programs, but if we compare--and one of the witnesses on the 
second panel said, look, someone from the SAA and the 
Department of Education, they are both out there, so that there 
is something going on, whether we call it approving, 
accreditation, review, where there may be potential 
duplication. It sounds like you have addressed it to a degree. 
Mr. Wilson, in terms of what you laid out in some amendments 
that you have discussed in your testimony with the Subcommittee 
staff; is that correct?
    Mr. Wilson. That is correct.
    Ms. Herseth Sandlin. Do you agree with the Veterans Service 
Organizations testifying today and the State Approving Agencies 
that the SAAs need more funding?
    Mr. Wilson. We don't at this point based on current active 
facilities as well as current statutory requirements. And that 
in large respects gets to what we would like to see addressed 
in the statutory responsibility.
    There is a difference between accreditation and program 
approval. And speaking very generally, accreditation has to do 
with whether or not an institution can meet its mission. And 
the program approval is more, from my perspective, a micro look 
at specifics--meeting the specific needs of veterans within 
those programs.
    So there is a different core, perhaps a different core 
desire there in terms of those two processes. But we are also 
under the belief that there are efficiencies that can be gained 
there.
    What we are looking for and I agree with everything that 
has been stated concerning the complexity of our programs, four 
core programs that we administer, many of our participants are 
eligible for all four or two or three, and there is going to be 
a strong need to provide outreach.
    I don't believe, though, as one of the previous individuals 
mentioned, that will die down after the first couple of years. 
We have at our core a very complex program. I believe it is 
incumbent upon all of us to do our best to make sure that we 
have folks out there in the field, with the SAAs are uniquely 
positioned for that, to provide that one-to-one contact with 
the veteran and help them make the decisions on how the 
programs best work for them, versus necessarily a specific 
absolute program approval process.
    Ms. Herseth Sandlin. I appreciate that.
    Mr. Boozman, do you have anything further?
    Mr. Boozman. Just one thing, Madam Chair.
    In your written testimony, Mr. Wilson, you mentioned things 
that you thought should be doing and perhaps some new things, 
could you guys at some point provide us, provide the Committee, 
with a kind of a priority list of statutory duties? Again, your 
testimony was good and really alluded to that, but I would like 
to know, I think we all would like to know specifically where 
you, where VA sees where your real priorities are and how we 
should implement that and if we need to help by doing whatever 
we need to do.
    Mr. Wilson. Certainly.
    Mr. Boozman. Thank you very much.
    Thank you, Madam Chair.
    Ms. Herseth Sandlin. Well, we will want to work on this a 
little bit more in terms of drawing the distinctions in 
consultation with counsel. I don't want to lose the forest 
through the trees here. I appreciate that you are looking to 
find efficiencies because accreditation is not the same as 
approval, but we believe that maybe the Department of Education 
is working with other entities to do a more thorough review, 
even though they don't do an approval process. So it sounds 
like you have initiated this and are trying to find those 
efficiencies, and we want to continue to work with you and 
appreciate the work that you, Mr. Rowe and Mr. Gebhart, have 
undertaken as it relates to your own performance-oriented 
measures that are very difficult and tricky to develop.
    As we do that, that is in no way indicative of the desire 
of me, I can't speak for the other Subcommittee Members, of 
somehow trying to narrow and fit what the SAAs do with a $19 
million annual budget. Part of our effort to get it to that was 
to make up for what was happening even before we passed the 
Post-9/11 GI Bill.
    I couldn't agree more on the outreach that is going to be 
necessary and likely ongoing and what that means in terms of 
amendments you have offered. As we look to the set of 
responsibilities that we are going to be looking to State 
Approving Agencies for, that there very well may be a good case 
to be made that the recent statutory modification that we made 
in the National Defense Authorization Act up to $19 million is 
now outdated already.
    I think this is the beginning of that discussion, and that 
analysis and the need for follow up and more information. We 
appreciate that you have already undertaken some of what we 
think will be necessary to meet the objectives of the 
Subcommittee and of your respective organization.
    With that, I thank you for your testimony, for being here 
at the Subcommittee, and your ongoing commitment to our 
Nation's veterans. The hearing now stands adjourned.
    [Whereupon, at 2:40 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman, 
                  Subcommittee on Economic Opportunity

    My colleagues may recall that we conducted a hearing on April 2007 
on the subject of State Approving Agencies. In that hearing we sought 
to determine how the Department of Veterans Affairs was following up on 
a 2007 GAO report titled ``Management Actions Needed to Reduce Overlap 
in Approving Education and Training Programs and to Assess State 
Approving Programs'' to ensure Federal resources are not duplicated and 
provide the VA with stronger oversight authority over SAAs.
    Today's hearing provides the Subcommittee the opportunity to follow 
up on that hearing that will: provide the VA the opportunity to 
highlight its progress from 2 years ago; provide us the opportunity to 
learn what more can be done to ensure SAAs are making the best use of 
its limited resources; and help us determine if Congressional action is 
required to ensure our veterans are enrolled in an educational program 
where they can meet their educational goals.
    As many of our panel members know, the authority of SAAs was 
established by Congress in 1947 to ensure that veterans and eligible 
dependents can use the GI Bill educational entitlement in an approved 
educational program. Under contract with the VA, the key function of 
SAAs is to ensure that education and training programs meet VA 
standards through a range of approval activities. In addition to these 
responsibilities, the SAAs' role has grown from what was first provided 
in Title 38, Chapter 36 which will be discussed in today's hearing.
    In the last Congress, under the leadership of Chairman Bob Filner, 
we successfully provided a permanent yearly funding at $19 million. 
Today we will hear from representatives of the State Approving Agencies 
who are seeking additional resources to help them meet their 
obligations to our veterans and the VA. I look forward to hearing from 
all the panelists to see what additional resources may be warranted, or 
in the alternative if SAAs can be streamlined to use their limited 
resources more effectively.
    I would like to thank all our panelists for the feedback they 
provided in today's hearing. Thank you for all your hard work to ensure 
that our nation's veterans are afforded the best educational 
opportunities to succeed in life after military service.
    I can assure you that this Subcommittee will follow up on the 
recommendations provided in today's hearing. We also look forward to a 
smooth implementation of the new Post-9/11 Montgomery GI Bill.

                                 <F-dash>
  Prepared Statement of Hon. John Boozman, Ranking Republican Member,
                  Subcommittee on Economic Opportunity

    Good afternoon, Madam Chair and everyone with us today.
    The State Approving Agencies are VA's frontline partners in 
ensuring veterans receive quality education and training. Without the 
State Approving Agencies, additional VA staff would be needed to 
provide many of the functions now done by the SAAs.
    Today's higher education system is vastly different from that of 
the 1940s. For example there is now more oversight by states and 
national accrediting agencies on all schools. There are now more 
schools, many of which have multiple campuses; more training programs, 
which also have several campuses; and more options such as distance 
learning, to access these programs. Online education is experiencing 
rapid growth and some fully accredited institutions have a majority of 
their students participating through online courses and many schools 
now offer blended attendance featuring a mix of classroom and online 
courses.
    Education and training has also experienced significant cost growth 
from the period of the first GI Bill. Using normal inflation rates, the 
$500 paid to schools and the $50 per month living stipend to cover all 
costs under the WWII GI Bill would now be $10,418. However, according 
to the College Board, the average tuition and fees at a public 
institution is now about $18,500.
    Last year in PL 110-389, Congress required VA to ensure that VA and 
the SAAs were coordinating their functions with other agencies such as 
the Department of Education as a means to ensure we are not having any 
duplication. Title 38 also lists the statutory duties of the SAAs.
    The question is whether, given all the changes in education, we 
need to refocus the efforts of the SAAs. It would seem to me that the 
public university system and what are referred to as recognized leading 
national universities, such as those listed by Newsweek and other 
publications, need little additional oversight. Courses or degrees 
offered by those schools should be accepted as meeting VA standards. 
With the increased level of benefits under the Post-9/11 GI Bill and 
proliferation of non-degree and OJT/Apprenticeship programs, additional 
oversight of those programs would seem appropriate.
    I would also note that title 38 allows states to add approval 
requirements. I suspect if we had a checklist from each SAA, we would 
find that beyond the statutory requirements, significant variation in 
what they look for.
    Madam Chair, the SAAs will again be pressing for additional funding 
beyond the $19 million currently authorized. To me, we should decide 
what the SAA duties should be and VA should be a part of that decision 
process. Once we have done that, we should pay them for that work.
    I yield back.

                                 <F-dash>
             Prepared Statement of Hon. Timothy H. Bishop,
        a Representative in Congress from the State of New York

    Madam Chairwoman and Members of the Subcommittee: I appreciate the 
opportunity to appear before you today to express my strong support for 
the State Approving Agencies (SAAs) and their crucial role in 
supporting our veterans.
    I have first-hand experience with the SAAs from my career as an 
administrator at Southampton College in Southampton, New York. 
Representatives from the New York SAA would visit campus annually to 
assess the quality of Southampton's programs and ensure our veteran 
students were taking full advantage of the academic and extracurricular 
activities we offered.
    Southampton College was a fully accredited institution of higher 
education, but it was very helpful for us to have an external quality 
assessment each year. Throughout my career in academia, the SAAs made 
administering the GI Bill benefits easier for Southampton as an 
institution, and helped us to better serve our dedicated veteran 
students.
    Today, as a Member of Congress, I have a new appreciation for their 
diligence in ensuring that taxpayer dollars are supporting only bona 
fide programs, and that veterans are receiving the top quality 
education they have earned.
    I was proud to vote for the Post-9/11 GI Bill and to see it signed 
into law as the most significant veterans benefit in America's history. 
The unprecedented scope of this program has required a dramatic 
increase in activity at all agencies responsible for administering the 
GI Bills, including the SAAs. However, the Federal commitment to the 
SAAs has not been enhanced to meet the increasing demands of this new 
mission, which include:

    <bullet>  Performing outreach activities to increase the 
utilization of the GI Bills

    <bullet>  Providing advice and guidance to veterans, guard, 
reservists, and other GI Bill benefit recipients, as well as educators, 
trainers and others who counsel veterans

    <bullet>  Training VA School Certifying Officials at all 
educational institutions and job training establishments; and

    <bullet>  Assisting the Federal Government in eliminating waste, 
fraud and abuse

    Other witnesses on the panel will be able to detail more 
specifically how the recent freeze in funding has affected the SAAs; 
however, I believe it is clear that they have been asked to do too much 
for too many with too little. Furthermore, the need for enhanced 
funding is critical as the 21st Century GI Bill begins paying benefits 
this fall.
    Having created this landmark program, Congress must make adequate 
provision to ensure it benefits our veterans as intended. I am 
gratified that the U.S. Department of Veterans Affairs shares my strong 
support for the SAAs and views them as a valued partner that deserves 
additional support.
    Once again, Madam Chairwoman, I appreciate the opportunity to 
testify before the Subcommittee today. Like our Nation's veterans, the 
SAAs deserve the highest level of support from Congress and I hope to 
have the opportunity to vote for an appropriate increase in funding in 
this session.

                                 <F-dash>
                   Prepared Statement of Mark Walker,
     Deputy Director, National Economic Commission, American Legion

    The mission of these State Approving Agencies (SAAs) is to provide 
technical assistance and regulatory expertise to educational and 
training administrators to ensure that quality programs are available 
to veterans and other eligible persons. SAAs approve programs leading 
to vocational, educational or professional objectives. These include 
vocational certificates, high school diplomas, GEDs, degrees, 
apprenticeships, on-the-job training, flight training, correspondence 
training and programs leading to required certification to practice in 
a profession. SAAs have not had an increase in funding in the last four 
years (inflation rose 14 percent during this time period); however, VA 
was allowed to conduct substantial hiring to process new claims. By 
contrast, SAAs have not been in a position to hire even though the 
Post-9/11 GI Bill workload has ballooned for these agencies as well. In 
order to carry out its expanded missions in light of the Post-9/11 GI 
Bill, SAAs will require an additional $5 million per year for the next 
3 years (total of $15 million). The Post-9/11 GI Bill has dramatically 
changed the work requirement for SAAs. Adequate funding will provide 
additional staffing and other resources for SAAs to fulfill its 
mission. The benefit stream flows through SAAs as well as the VA, and 
without fully functioning SAAs, veterans and other benefit recipients 
will not receive their educational benefits in a smooth, orderly, and 
timely manner.
    In a Government Accountability Office (GAO) report in March 2007 
entitled ``VA Student Financial Aid; Management Actions Needed to 
Reduce Overlap in Approving Education and Training Programs and to 
Assess State Approving Agencies'' (GAO-07-384) focused on the need to 
``ensure that Federal dollars are spent efficiently and effectively.'' 
GAO recommended that VA should require SAAs to track and report data on 
resources spent on approval activities, such as site visits, catalog 
review, and outreach in a cost-efficient manner. The American Legion 
agrees. Additionally, GAO recommended that VA establish outcome-
oriented performance measures to assess the effectiveness of SAAs 
efforts. The American Legion fully agrees. Finally, GAO recommended 
that VA should collaborate with other agencies to identify any 
duplicate efforts and use the agency's administrative and regulatory 
authority to streamline the approval process. The American Legion 
agrees.
    The American Legion strongly supports SAAs and is committed to 
working with them along with the VA and other Federal agencies to 
ensure that America's veterans receive the finest education and 
training programs so they can live a dignified and successful life 
after serving this great nation. Again, thank you for the opportunity 
to submit the opinion of The American Legion on this issue.
                               __________
    Madam Chairwoman and distinguished Members of the Subcommittee, 
thank you for the opportunity to submit the views of The American 
Legion regarding the Evolution of State Approving Agencies.
State Approving Agencies
    State Approving Agencies (SAAs) are responsible for approving and 
supervising programs of education for the training of veterans, 
eligible dependents, and eligible members of the National Guard and the 
Reserves. SAAs grew out of the original GI Bill of Rights that became 
law in 1944. Though SAAs have their foundation in Federal law, SAAs 
operate as part of state governments. SAAs approve programs leading to 
vocational, educational or professional objectives. These include 
vocational certificates, high school diplomas, GEDs, degrees, 
apprenticeships, on-the-job training, flight training, correspondence 
training and programs leading to required certification to practice in 
a profession.
    Effective March 1, 2001, SAAs assumed responsibility for approving 
organizations offering tests required to secure local, state, Federal 
or industry-based licenses or certifications. SAAs maintain a computer 
database that lists all approved education and training facilities in 
the state and their approved program offerings. The mission of these 
SAAs is to provide technical assistance and regulatory expertise to 
educational and training administrators to ensure that quality programs 
are available to veterans and other eligible persons.
    The Post-9/11 Veterans Education Assistance Act was signed into law 
on June 30, 2008, and is scheduled for implementation on August 1, 
2009. Four very different education programs will soon exist: the Post-
9/11 GI Bill, Montgomery GI Bill, Montgomery GI Bill-Selected Reserve, 
and the Reserve Educational Assistance Program.
    This new bill goes well beyond helping to pay for tuition and fees; 
many veterans who served after September 11, 2001, will get full 
tuition and fees, a new monthly housing stipend, and a $1,000 a year 
stipend for books and supplies. The new bill also gives Reserve and 
Guard members who have been activated since 9/11 access to the same GI 
Bill benefits.
    Another added benefit to the Post-9/11 GI Bill is the Yellow Ribbon 
Program. This program allows institutions of higher learning (degree 
granting institutions) in the United States to voluntarily enter into 
an agreement with VA to fund tuition expenses that exceed the highest 
public in-state undergraduate tuition rate. The institution can 
contribute up to 50 percent of those expenses and VA will match the 
same amount as the institution, enhancing school reimbursements and the 
value of the New GI Bill. Veterans who are going through a graduate 
program or seeking out-of-state tuition and fees can also use this 
program. Regarding concerns of proper resources to implement the new 
program, VA has hired and begun training 530 temporary veterans' claims 
examiners to support implementation and assure payments will be made 
beginning August 1, 2009.
    It should be noted that SAAs have not had an increase in funding in 
the last four years (inflation rose 14 percent during this time 
period). As already mentioned, VA was allowed to conduct substantial 
hiring to process new claims. By contrast, SAAs have not been in a 
position to hire even though the Post-9/11 GI Bill workload has 
ballooned for these agencies as well. In order to carry out its 
expanded missions in light of the Post-9/11 GI Bill, SAAs will require 
an additional $5 million per year for the next 3 years (total of $15 
million). This funding would allow SAAs to continue to fulfill these 
duties:

    <bullet>  make determinations regarding the quality and integrity 
of all kinds of learning experiences (institutional, job training, 
flight, correspondence, etc.);

    <bullet>  work with employers to develop and enroll veterans in job 
training programs (Apprenticeships and OJT);

    <bullet>  assess and approve tests for professional and 
occupational licensing and certification;

    <bullet>  perform outreach activities to increase the utilization 
of the GI Bills including briefings during transition assistance 
programs (TAP) and retirement seminars, and sending out mailings to 
recently discharged veterans and Selected Reserve personnel;

    <bullet>  provide advice and guidance to veterans, guardsmen, 
reservists, and other GI Bill benefit recipients, as well as educators, 
trainers, and others who counsel veterans; and,

    <bullet>  train VA School Certifying Officials at all educational 
institutions and job training establishments.

    The Post-9/11 GI Bill has dramatically changed the work requirement 
for SAAs. Adequate funding will provide additional staffing and other 
resources for SAAs to fulfill its mission. The benefit stream flows 
through SAAs as well as the VA, and without fully functioning SAAs, 
veterans and other benefit recipients will not receive their 
educational benefits in a smooth, orderly, and timely manner.
    In a Government Accountability Office (GAO) report in March 2007 
entitled ``VA Student Financial Aid; Management Actions Needed to 
Reduce Overlap in Approving Education and Training Programs and to 
Assess State Approving Agencies'' (GAO-07-384) focused on the need to 
``ensure that Federal dollars are spent efficiently and effectively.'' 
GAO recommended that VA should require SAAs to track and report data on 
resources spent on approval activities, such as site visits, catalog 
review, and outreach in a cost-efficient manner. The American Legion 
agrees. Additionally, GAO recommended that VA establish outcome-
oriented performance measures to assess the effectiveness of SAAs 
efforts. The American Legion fully agrees. Finally, GAO recommended 
that VA should collaborate with other agencies to identify any 
duplicate efforts and use the agency's administrative and regulatory 
authority to streamline the approval process. The American Legion 
agrees.
    The American Legion strongly supports SAAs and is committed to 
working with them along with the VA and other Federal agencies to 
ensure that America's veterans receive the finest education and 
training programs so they can live a dignified and successful life 
after serving this great nation. Again, thank you for the opportunity 
to submit the opinion of The American Legion on this issue.

                                 <F-dash>
                Prepared Statement of Raymond C. Kelley,
       National Legislative Director, American Veterans (AMVETS)

    Madam Chairwoman, Ranking Member Boozman, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to provide AMVETS' views concerning State Approving Agencies.
    In March 2007, GAO reported on ``VA Student Financial Aid: 
Management Actions Needed to Reduce Overlap in Approving Education and 
Training Programs and the Assess State Approving Agencies.'' The report 
held three major recommendations: First, VA should require SAAs to 
track and report data on resources spent on approval activities such as 
site visits, catalog review, and outreach in a cost-effective manner; 
second, VA should collaborate with other agencies to identify any 
duplicative efforts and use the agency's administrative and regulatory 
authority to streamline the approval process; and finally, VA should 
establish outcome-oriented performance measures to assess the 
effectiveness of SAA efforts. (GAO 07-775T) VA concurred with these 
findings and promised to find solutions to these issues in FY08. 
However, AMVETS has been unable to locate any indication that VA has 
made efforts to correct these deficiencies by the FY08 budget cycle or 
in any subsequent year. The 467 page Department of Veterans Affairs 
FY08 Performance and Accountability Report failed to mention any steps 
that are being taken to improve the SAA's effectiveness. As early as 
1988, GAO reported on the issue of agency overlap of program approval. 
AMVETS believes there is added value in SAA's approval, training and 
oversight role, but without accountability of time and resources, and 
tangible outcome measures the effectiveness and efficiency of SAA will 
never be know.
    First AMVETS questions the amount of time that is invested on 
program approval and review. The most recent review of SAA's time 
allocation that AMVETS could find is from 1988. This data found that 
nearly 36 percent of SAA's time is spent approving and reviewing 
programs. This is disturbing to AMVETS in light of the fact that a 
majority of the programs have already been approved by other government 
agencies.

[GRAPHIC] [TIFF OMITTED] T1874A.001

    (Analysis of the Education Program Approval Process: A Program 
Evaluation, May 1988)

    AMVETS understands the unique role the SAA has in ensuring veterans 
programs are approved, but with that said, nearly 80 percent of all 
programs that are approved by Department of Education (DOE) are also 
approved by SAA, and that by law, title 38, section 3687(a)(1), all 
apprenticeships must meet Department of Labor (DOL) standards before 
they can be accepted by VA. So even though there are unique factors 
that SAA looks at to determine eligible programs, there is an inherent 
redundancy in the approval process between SAA and other approving 
agencies. Nearly two and half years have passed since VA stated they 
``will initiate contact with appropriate officials at the Department of 
Education and Labor to identify any duplicative efforts'' with no 
indication of changing their policy to reduce duplication. (GAO-07-384, 
Appendix II) AMVETS humbly requests that Congress task VA with 
contacting the Department of Education and Labor to truly determine the 
areas of overlap and report back to Congress their findings and their 
plan to reduce the duplication.
    Second, VA also boasts that they ``diligently track SAA 
activities.'' The issue AMVETS has with this tracking process is that 
SAA only tracks activities (outputs) and not the results or 
improvements (outcomes) of the activities. Reporting how many sight 
visits SAA has made or the amount of training that was provided only 
accounts for the hours worked and not actual results the visits and 
training had in improving services to veterans. To truly understand the 
efficiency and effectiveness of a program SAA must track the outcome 
measures of the work they conduct. It is also impossible to track the 
efficiency and effectiveness of a program when there are no internal 
controls over the financial assets. VA provides SAA with $19 million 
per year with no expectation that SAA report back on the use of the 
funds. The only mechanism that is in place to monitor the productivity 
of SAA is a self-evaluation and review. PL 100-323 ``Requires the 
Administrator: (1) to conduct an annual evaluation of each SAA and 
provide SAAs an opportunity to comment on the evaluation; (2) supervise 
functionally the provision of course-approval services by States; and 
(3) cooperate in developing a uniform national curriculum for training 
of employees of SAA. Requires SAAs carrying out contracts with the 
Administrator to apply qualification and performance standards to SAA 
personnel.'' VA's response to this law was to develop the Joint Peer 
Review Group (JPRG). This group meets annually to review each of the 
SAA's self-assessed performance. AMVETS questions the sincerity of 
these reviews, not solely based on the fact that it is a self-
assessment reviewed by their peers, but by the fact that these reviews 
are not accessible to the public. SAA lacks the two key components in 
determining efficiency and effectiveness of a program: accountability 
of resources and data that proves services improved because of the 
program.
    In conclusion, AMVETS believes that SAA can provide value to 
veterans, but until there are oversight and accountability mechanisms 
in place, the degree of value cannot be determined. It is for these 
reasons that AMVETS recommends: (a) that SAA begin reporting back to VA 
their allocation of funds; (b) that a real effort to identify program 
approval overlaps takes place with a plan of how SAA will eliminate the 
overlaps; (c) that SAA will develop outcome measures for their sight 
visits and training programs and report them to VA and the public 
annually and; (d) that the annual JPRG report be presented to VA and 
the public.
    Madam Chairwoman, thank you again for providing AMVETS the 
opportunity to present our views on issue. This concludes my testimony 
and I will be happy to answer any questions you may have.

                                 <F-dash>
                Prepared Statement of Patrick Campbell,
  Chief Legislative Counsel, Iraq and Afghanistan Veterans of America

    Madam Chairwoman, Ranking Member, and Members of the Subcommittee, 
on behalf of Iraq and Afghanistan Veterans of America (IAVA), thank you 
for the opportunity to testify today regarding the evolution of State 
Approving Agencies. State Approving Agencies play a critical role in 
the administration of GI Bill benefits and protecting against abuse of 
these benefits.
    In 2007 veterans attended over 8,700 different colleges, 
universities and trade schools-all approved by State Approving 
Agencies. Overall, the VA has over 27,000 approved education programs 
monitored by State Approving Agencies. The Post-9/11 GI Bill has 
created an opportunity to expand and grow State Approving Agencies 
which have over 60 years of experience in connecting states and 
veterans with their GI Bill benefits.
SAAs play a critical role in administering GI Bill benefits.
    The original WW II GI Bill authorized the Administrator of 
Veterans' Affairs, ``from time to time . . . [to] secure from the 
appropriate agency of each state a list of education and training 
institutions (including industrial establishments) . . . which are 
qualified and equipped to furnish education or training.\1\'' State 
Approving Agencies were tasked to certify that education programs were 
qualified to teach returning veterans. Since this initial mandate 60 
years ago, the basic role of the SAAs has changed very little.
---------------------------------------------------------------------------
    \1\ Sec. 4, Part VIII, 78 P.L. 346, Servicemen's Readjustment Act 
1944.
---------------------------------------------------------------------------
    Currently State Approving Agencies are still federally contracted 
state employees who certify that education programs, vocational 
programs and national examinations meet basic VA standards. Newer 
duties include site visits to educational facilities, technical 
assistance for VA approved programs, outreach, liaising with other 
service providers and contract management. SAAs visit schools once 
every 1-3 years and review criteria such as student achievement, 
curricula, program objectives, facilities, and recruiting and admission 
standards. Below is a list of approval criteria and the corresponding 
standards contained in the Code of Federal Regulations. Non-accredited 
institutions have tougher standards than accredited institutions.


------------------------------------------------------------------------
                                     Non-Accredited        Accredited
      Approval Criteria \2\           Institutions        Institutions
------------------------------------------------------------------------
Period of Operation                CFR 21.4251         CFR 21.4251
------------------------------------------------------------------------
Accreditation Status               CFR 21.4254(a)      CFR 21.4253
------------------------------------------------------------------------
Quality, Content and Length        CFR 21.4254(c)(1)   CFR 21.4253
------------------------------------------------------------------------
Qualifications of Personnel        CFR 21.4254(c)(1),  CFR 21.4253
                                    (c)(2), (c)(3),
                                    (c)(12)
------------------------------------------------------------------------
Adequacy of Facilities             CFR                 CFR 21.4253
                                    21.4254(b)(10),
                                    (c)(2)
------------------------------------------------------------------------
Financial Soundness                CFR 21.4254(c)(9)
------------------------------------------------------------------------
Advertising, Sales, Enrollment     CFR 21.4252(h),     CFR 21.4252(h)
 Prac.s                             CFR
                                    21.4254(c)(10)
------------------------------------------------------------------------
Enrollment Policy                  CFR 21.4254(b)(4)   CFR 21.4253(e)(2)
------------------------------------------------------------------------
School Calendar                    CFR 21.4254(b)(3),
                                    (c)(1)
------------------------------------------------------------------------
Fee Schedule                       CFR 21.4254(b)(8)
------------------------------------------------------------------------
Refund Policy                      CFR 21,
                                    4254(c)(13),
                                    (b)(9), CFR
                                    21.4255
------------------------------------------------------------------------
Attendance Policy                  CFR 21.4254(b)(5)   CFR 21.4253(d)(2)
------------------------------------------------------------------------
Progress Standards                 CFR 21.4254(b)(6),  CFR
                                    (c)(7)              21.4253(d)(1),
                                                        (d)(2), (s)(4)
------------------------------------------------------------------------
Conduct Policy                     CFR 21.4254(b)(7),  CFR
                                    (c)(7)              21.4253(d)(1)(i)
                                                        , (d)(4)
------------------------------------------------------------------------
Credit for Previous Education      CFR                 CFR 21.4253(d)(3)
                                    21.4254(b)(12),
                                    (c)(4)
------------------------------------------------------------------------
Programs Precluded                 CFR 21.4252, CFR    CFR 21.4252
                                    21.4265(a)
------------------------------------------------------------------------
Enrollment Limitations             CFR 21.4201, CFR    CFR 21.4201
                                    21.4254(c)(11)
------------------------------------------------------------------------
Programs at a Branch or Extension  CFR 21.4266         CFR 21.4266
------------------------------------------------------------------------
Program Outlines                   CFR 21.4254(c)(5),
                                    (b)(11)
------------------------------------------------------------------------
Resident Instruction               CFR 21.4200(o)(i),  CFR
                                    (g), (r);           21.4200(o)(i),
                                    21.4280(f)          (g), (r);
                                                        21.4280(f)
------------------------------------------------------------------------
Cooperative Training               CFR 21.4233(a)      CFR 21.4233(a)
------------------------------------------------------------------------
Correspondence                     CFR                 CFR
                                    21.4200(o)(iii),    21.4200(o)(iii),
                                    CFR 21.4256         CFR 21.4256
------------------------------------------------------------------------
Independent Study                  CFR 21.4280(c)      CFR 21.4280(c)
------------------------------------------------------------------------
Practical Training                 CFR 21.4265         CFR 21.4265
------------------------------------------------------------------------
Combinations of Instruction        CFR 21.4233, CFR    CFR 21.4233, CFR
                                    21.4273(c), CFR     21.4273(c), CFR
                                    21.4279             21.4279
------------------------------------------------------------------------


    The Post-9/11 GI Bill created a new responsibility for State 
Approving Agencies. All of which, significantly impact a large 
population of veterans and affect the overall cost of the benefit. The 
tuition and fees benefit of the Post-9/11 GI Bill is based on the most 
expensive, instate undergraduate public school program in each state. 
State Approving Agencies were tasked with reviewing each and every 
public school program in order to establish the appropriate state cap 
for tuition and fees. These tuition caps affect tens of thousands of 
veterans attending graduate programs and private universities.
---------------------------------------------------------------------------
    \2\ Guide to Approval for Institutions and Educational Programs 
enrolling Veterans, http://www.ctdhe.org/vet/SchoolApproval.htm.
---------------------------------------------------------------------------
SAAs will protect against fraud, waste and abuse
    State Approving Agencies are on the frontlines of preserving the 
integrity of GI Bill benefits. This recommendation was published in a 
report in 1956, reviewing lessons learned from the WWII GI Bill, ``A 
readjustment benefit should include adequate safeguards to assure that 
benefits actually serve a bona fide readjustment purpose. Such 
safeguards should not be carried to the point where they deprive the 
veteran of a reasonable freedom of choice--but that freedom should be 
exercised within limits which assure value received.\3\'' The report 
acknowledged that some veterans used their WWII GI Bill benefits simply 
as a source of income, indulging in recreational and/or a vocational 
programs to qualify. In response, Congress passed tighter rules and 
regulations governing the use of GI Bill benefits, implemented chiefly 
by State Approving Agencies.
---------------------------------------------------------------------------
    \3\ House Select Committee to Investigate Educational, Training, 
and Loan Guaranty Programs Under GI Bill, H.Rep. No. 1375, 82d Cong., 
2d Sess. p. 272.
---------------------------------------------------------------------------
    The Post-9/11 GI Bill, like the WWII GI Bill, pays tuition and fees 
directly to the school. These types of payments ``contributed to some 
problems connected with proprietary schools\4\'' and were later 
eschewed for a single payment plan to the individual not the schools. 
IAVA strongly supported reinstating tuition and fees payments directly 
to the school to help veterans overcome the huge upfront costs 
associated with higher education. However, we also acknowledge that 
these types of payments require close monitoring because they are 
vulnerable to abuse. Historically, many of the controls needed to 
ensure proper use of Post-9/11 GI Bill benefits have already been put 
in place (see chart above).
---------------------------------------------------------------------------
    \4\ House Select Committee to Investigate Educational, Training, 
and Loan Guaranty Programs Under GI Bill, H.Rep. No. 1375, 82d Cong., 
2d Sess. p. 243.
---------------------------------------------------------------------------
    Unfortunately, due to creative interpretations of the tuition and 
fees benefits by the Department of Veterans, State Approving Agencies 
do not have the tools or guidelines to prevent schools from 
dramatically maximizing their portion of GI Bill benefits from the VA. 
The VA quizzically concocted a reimbursement scheme that created two 
distinct tuition and fee caps. The tuition cap is paid on a per credit 
basis and the fees cap is paid on a per term basis. The VA has failed 
to define the critical provisions of this new benefit, including what 
constitutes an ``academic term'', ``credits'', ``tuition'' and 
``fees.'' This lack of clarity means that schools have wide latitude to 
simply adjust the names of their educations charges, from tuition to 
fees or vice versa, and position themselves to receive large sums of 
cash from the VA. For example, a veteran enrolled in just one credit 
hour in Colorado could still receive upward of $43,000/term in fees 
because the fees cap is not dependent on the level of enrollment. 
Furthermore, since the length of an academic term is defined by the 
school and not VA regulations, a veteran could be enrolled in upwards 
of twelve academic terms in 1 year and that school would receive six 
times the amount of tuition/fees as a regular semester program. State 
Approving Agencies are powerless to prevent approved programs from 
milking the system.
    IAVA strongly believes that the tuition and fees benefit of the 
Post-9/11 GI Bill should be revisited and reworked to ensure both a 
generous and fair benefit. In the interim, the VA should issue clear 
standards for schools to follow and the State Approving Agencies to 
enforce regarding the tuition and fees benefits. Failure to prevent a 
few apples from turning rotten may ruin the entire barrel.
Post-9/11 GI Bill presents new opportunities for SAAs
    While the Post-9/11 GI Bill is the largest increase in education 
benefits since WW II, this generous new benefit is far from intuitive 
from a user's perspective. Considering that one of the core duties of 
the State Approving Agencies is to do outreach and provide technical 
assistance to schools offering approved programs, IAVA believes that 
State Approving Agencies are best positioned to conduct increased local 
outreach and education on the Post-9/11 GI Bill. Over the past year, 
the VA has conducted minimal and non-substantial outreach to veterans 
explaining their new benefits, though their new GI Bill Web site is a 
vast improvement over what previously existed. State Approving Agencies 
could work with local schools and VA certifying officials to help 
veterans know about their benefits.
Conclusion
    State Approving Agencies will account for around 5 percent of the 
overall GI Bill budget in 2009. They play a critical role in the 
administration of the GI Bill and given the right tools, will save 
taxpayers more than their annual allotment by preventing fraud, waste 
and abuse. We believe that the VA should look to expand the State 
Approving Agency program to include increased outreach and technical 
training to help veterans and schools prepare for the Post-9/11 GI 
Bill.

                                 <F-dash>
       Prepared Statement of Justin Brown, Legislative Associate,
 National Legislative Service, Veterans of Foreign Wars of the United 
                                 States

    MADAM CHAIRWOMAN AND MEMBERS OF THIS SUBCOMMITTEE:
    On behalf of the 2.2 million members of the Veterans of Foreign 
Wars of the United States and our Auxiliaries, I would like to thank 
this Committee for the opportunity to testify. The issues under 
consideration today are of great importance to our members and the 
entire veteran population.
    State Approving Agencies (SAAs) continue to play a vital role in 
the administration of veterans' education programs. With the passage of 
the Post-9/11 GI Bill SAA's mission has dramatically evolved. The Post-
9/11 GI Bill is a complex benefit and a great deal of the 
administrational burden lies with SAAs.
Background on State Approving Agencies
    State Approving Agencies were created following the passage of the 
Servicemen's Readjustment Act 1944 to help administer the benefit 
while; assisting the Federal Government in preventing waste, fraud, and 
abuse; maintaining a high quality learning experience for veterans 
utilizing Federal benefits; and assisting veterans transitioning from 
the military and into the civilian sector.
    The scope and mission of the SAAs has changed relatively little 
until recently. Multiple recent legislative changes have increased and 
broadened the scope of the SAAs. The most notable included the passage 
of the Post-9/11 GI Bill, and in 2001, SAAs were given the role of 
actively promoting the development of apprenticeship, on-job-training 
programs, and the approval of tests used for licensing and 
certification. The legislative action in 2001 was followed with a 
funding increase in FY 2003 from $13 million with a graduated increase 
to $19 million by FY 2006--their current level of funding. In 
consideration of inflation, SAA's funding level has continually eroded 
since its last increase in FY 2006.
Current Legal Requirements of State Approving Agencies
    SAA's responsibilities are summarized in the Code of Federal 
Regulations 38 CFR 21.4151 (b). (Authority: 38 U.S.C. 3673(a))

    (b) State approving agency responsibilities. State approving 
agencies are responsible for:

        (1) Inspecting and supervising schools within the borders of 
        their respective States;

        (2) Determining those courses which may be approved for the 
        enrollment of veterans and eligible persons;

        (3) Ascertaining whether a school at all times complies with 
        its established standards relating to the course or courses 
        which have been approved;

        (4) Determining those licensing and certification tests that 
        may be approved for cost reimbursement to veterans and eligible 
        persons;

        (5) Ascertaining whether an organization or entity offering an 
        approved licensing or certification test complies at all times 
        with the provisions of 38 U.S.C. 3689; and

        (6) Under an agreement with VA rendering services and obtaining 
        information necessary for the Secretary's approval or 
        disapproval under chapters 30 through 36, title 38 U.S.C. and 
        chapters 107 and 1606, title 10 U.S.C., of courses of education 
        offered by any agency or instrumentality of the Federal 
        Government within the borders of their respective States.

    While the CFR certainly reflects the core responsibilities of SAAs 
the National Association of State Approving Agencies (NASAA) has 
produced a list that tends to characterize a more thorough 
understanding of their mission.

        (1) Making determinations regarding the quality and integrity 
        of all kinds of learning experiences (institutional, job 
        training, flight, correspondence, etc.)

        (2) Working with employers to develop and enroll veterans in 
        job training programs (Apprenticeships and OJT).

        (3) Assessing and approving tests for professional and 
        occupational licensing and certification.

        (4) Advocate for veterans at state and local levels, and serve 
        as gatekeepers for the GI Bill.

        (5) Provide insights to the DVA and Congress on changes 
        necessary to make the GI Bills more relevant and responsive.

        (6) * Performing outreach activities to increase the 
        utilization of the GI Bills including; briefings during 
        transition assistance programs (TAP) and retirement seminars, 
        and sending out mailings to recently discharged veterans and 
        Selected Reserve personnel.

        (7) * Provide advice and guidance to veterans, guard, 
        reservists, and other GI Bill benefit recipients, as well as 
        educators, trainers and others who counsel veterans.

        (8) * Training VA School Certifying Officials at all 
        educational institutions and job training establishments.

        (9) * Assist the Federal Government in eliminating waste, fraud 
        and abuse.

    *Missions expanded as a result of the Post-9/11 GI Bill

    Most of the above expanded missions are information based. With a 
complex benefit it is imperative that veterans are being provided 
correct and timely information. The VFW is aware of multiple instances 
in which veterans are getting incorrect information and/or are having 
trouble locating quality information. Only recently have decent 
resources started to appear in regards to information on the GI Bill. 
All of this would lead the VFW to believe that there is an increased 
need for highly trained individuals working at the state level. SAAs 
ought to be providing the same services as in previous years but also 
expanding their scope and ability to fill the much needed expansion of 
informational services required of the complex Post-9/11 GI Bill.
The Potential for Increased Waste, Fraud, and Abuse
    The VFW believes that it is especially important to emphasize the 
increased potential for waste, fraud, and abuse of this benefit. The 
changes in the rate of pursuit schedule \1\ and the yellow ribbon 
program leave the possibility of large overpayments or underpayments to 
veterans attending schools. NASAA has singled this issue out as perhaps 
its most manpower intensive mission in consideration of the changes due 
to the Post-9/11 GI Bill.
---------------------------------------------------------------------------
    \1\ Rate of pursuit is the rate at which a veteran pursues the 
completion of their degree or training. Constant verification of a 
veteran's rate of pursuit is necessary to ensure veterans are not over- 
or underpaid.
---------------------------------------------------------------------------
    If left unattended, overpayments not corrected for a long period of 
time could prove devastating to veterans at no fault of their own. 
Overpayments are typically drawn from future payments to veterans and 
may leave them with less than adequate funding to maintain their 
livelihood. Veterans depend on the benefits process to get it right the 
first time and SAAs play a crucial role in the process. The VFW hopes 
to see a vigilant staff at both the state and Federal levels, with 
adequate resources, working to insure a smooth seamless administration 
of the Post-9/11 GI Bill with little or no affect on the quality of 
other programs and missions.
Current SAAs Funding Levels Are Insufficient to Meet Needs
    While the VA has been amply funded and allotted time to prepare for 
the Post-9/11 GI Bill, SAAs are operating at the same level of funding 
for their fourth consecutive year. SAA's workload is already 
dramatically increasing. Without a similar increase in resources, 
certain responsibilities will be neglected thereby decreasing the 
programs overall quality for veterans and reducing the insurance of a 
quality investment for our Federal Government. For the GI Bill to 
remain the first-rate program it is today, SAAs must have the necessary 
funding to maintain their critical mission.
    SAAs are the face of the GI Bill at the state level. As such, they 
are being inundated by VA School Certifying Officials and individual 
benefit recipients eager for information. This additional workload, 
that requires timely responses, has immediately increased the SAA's 
mission particularly in the realm of outreach and training.
    There is no question that the Post-9/11 GI Bill is a complex 
benefit. Moreover, within the next few years it is likely there will be 
legislative changes to the Post-9/11 GI Bill that will require 
additional outreach and training. SAAs are behind the curve in funding, 
have an expanded mission, and are losing time to train and implement 
resources that come with an increase in funding.
VFW's Suggested Course of Action
    The VFW strongly supports NASAA's request for an additional $5 
million dollar appropriation per fiscal year for a total of $24 million 
per a fiscal year. The VFW believes this would prove sufficient for the 
State Approving Agency's newly expanded workload. The VFW also requests 
any increase be tied to a cost of living index to reduce the gradual 
deterioration of the funding.

                                 <F-dash>
             Prepared Statement of Charles Rowe, President,
            National Association of State Approving Agencies

Introduction:
    Chairwoman Herseth Sandlin, Ranking Member Boozman and Members of 
the Subcommittee on Economic Opportunity, I am pleased to appear before 
you today on behalf of the National Association of State Approving 
Agencies (NASAA) to provide a historical perspective and overview of 
the current role the State Approving Agencies (SAAs) are playing in 
approving and supervising programs of study and in implementing the 
Post-9/11 GI Bill.
    This testimony is presented in four (4) parts. The executive 
summary, and three (3) sections which provide a summary of expansions 
in the SAAs missions, direct answers to the Subcommittee's questions, 
and concluding comments and SAAs survey results.

                      Section I. Executive Summary

    State Approving Agencies (SAAs) were created shortly after the 
enactment of the original GI Bill to work with the Department of 
Veterans Affairs to assist in the preventing of waste, fraud and abuse, 
ensure credible learning experiences for vets, and assist veterans in 
successfully transitioning into the civilian world. Chapter 36 of Title 
38 U.S. Code delineates in some detail the provisions for funding and 
the responsibilities of the SAAs. SAAs have historically been the 
``face'' of the GI Bill at the state level, and their contributions to 
its success have been demonstrated for over six decades.
    With the impending implementation of the Post-9/11 GI Bill a number 
of the historical missions of the SAAs have been significantly 
expanded: The amount and scope of required advice and guidance to 
veterans, guard, and reservists via outreach and other means has 
surged. The in-depth training and technical assistance that must be 
provided to Certifying Officials surrounding the new certification 
procedures such as the special ``yellow ribbon'' considerations 
regarding overpayments even for full-time students and the like, have 
ballooned, while the efforts which will be required to assist the 
Federal Government in the elimination of waste, fraud, and abuse are 
set to skyrocket as the new Post-9/11 GI Bill takes effect in a few 
weeks.
    This increased tasking, mission expansion, and the endless requests 
for training and assistance are unprecedented in the experience of the 
SAAs, and will require significantly increased staffing. Just as the 
DVA was forced to hire new personnel to handle the demands of the Post-
9/11 GI Bill, so to, the SAAs must hire in order to be able to properly 
carry out these additional training and supervision requirements.
    SAAs are part of a ``DVA/SAA/VCO/Benefit Recipient'' network and 
continuum. Now that the tasking for all parts of this network has 
rather dramatically increased, SAAs must be funded and staffed to the 
new missions or the entire benefit chain will suffer accordingly.
    The current funding level for all of the SAAs is unrealistically 
low given this new environment. SAA funding has remained at the $19 
million level for four (4) years while during that period the cost of 
living has increased by roughly 15 percent. In order to efficiently and 
effectively accomplish the expanded Post-9/11 GI Bill missions, at a 
minimum, SAAs require an additional $15 million over the next three (3) 
years, and we recommend that it be phased in over a 3 year period, $5 
million in 2010, $5 million in 2011, and $5 million in 2012.
    When Chapter 33 was announced the VA was allowed to hire over 500 
new personnel in recognition of the additional work burdens imposed by 
the Post-9/11 GI Bill. The SAAs, by contrast, have not been in a 
position to hire, because of static funding, even though the Post-9/11 
workload has ballooned for the SAAs as well.
    SAAs are a critical part of a DVA/SAA/SCO/benefit recipient 
continuum. The educational benefit stream to all benefit recipients 
flows right through the SAAs as well as the VA, and without a fully 
functioning SAA, veterans and other benefit recipients will not receive 
their educational benefits in a smooth, orderly, and timely fashion, 
and that would deny them the best possible service which Congress 
expects and our veterans have earned and most surely deserve.
    In closing, Mrs. Chairwoman, I want to sincerely thank you and this 
subcommittee for the opportunity you have provided NASSA today to 
explain why it is so necessary that the SAAs be given the resources to 
carry out the expanded and critically important missions that arise 
from the implementation of new Post-9/11 GI Bill. We would be happy to 
respond to any questions.
Section II. SAAs Mission Expansion as a result of the Post-9/11 GI Bill
    Historical Background: Shortly after its enactment, Congress 
requested that the states provide assistance with the administration of 
the Servicemen's Readjustment Act 1944. It has always been the 
responsibility of states to:

    1.  Assist the Federal Government in preventing waste, fraud and 
abuse
    2.  Insure the credibility of the learning experiences in which 
veterans engage
    3.  Assist veterans in making a successful transition from the 
military to the civilian world

    In order to carry out these missions and achieve their objectives, 
State Approving Agencies (SAAs) were created. The constitutional basis 
for this is the legal principle that, if not mentioned in the 
Constitution, a task remains the function of the states. Since 
education is not specifically mentioned, the states, and not the 
Federal Government, retain responsibility for the education in their 
respective states.
    Hence, State Approving Agencies are to work in concert with the 
Department of Veterans Affairs on behalf of the Congress and the 
President to achieve the above objectives. Currently Chapter 36 of 
Title 38, U.S. Code provides the guidance on how the states are to 
fulfill their responsibilities in the administration of the GI Bills, 
while also establishing the parameters for the types and levels of 
interaction that are to occur between the Federal Government (VA) and 
the states (SAAs). The separate and distinct responsibilities of both 
the states and Federal Government are clearly spelled out in the Code.
    Section 3674(a) (1) authorizes the Secretary of the Department ``to 
enter into contracts or agreements'' and addresses the nature of the 
Secretary's responsibilities in terms of covering the expenses incurred 
by states, and indicates, ``. . ., the Secretary is authorized to enter 
into contracts or agreements with the State and local agencies to pay 
such State and local agencies for the reasonable and necessary expenses 
of salary and travel incurred by employees of such agencies and an 
allowance for administrative expenses . . .''
    Section 3674(a) (4) specifically provides the amount of the funds 
that will be made available to states to carry out their 
responsibilities, and the funds are viewed as a non-discretionary 
expenditure.
    SAAs are the ``face'' of the GI Bill at the state level and they 
make major contributions to the success of the various GI Bills in many 
ways. These contributions far exceed the proportionate amount of funds 
received by these agencies when compared to the amount of benefits 
provided to veterans and other GI Bill eligible persons.
    In order to carry out its expanded SAA missions in the light of the 
new GI Bill, SAAs will require close to a doubling of the current 
funding over the next three (3) years.
SAA Missions:

        1) Making determinations regarding the quality and integrity of 
        all kinds of learning experiences (institutional, job training, 
        flight, correspondence, etc.)
        2) Working with employers to develop and enroll veterans in job 
        training programs (Apprenticeships and OJT)
        3) Assessing and approving tests for professional and 
        occupational licensing and certification
        4) Advocate for veterans at state and local levels, and serve 
        as gatekeepers for the GI Bill
        5) Provide insights to the DVA and Congress on changes 
        necessary to make the GI Bills more relevant and responsive
        *6) Performing outreach activities to increase the utilization 
        of the GI Bills including; briefings during transition 
        assistance programs (TAP) and retirement seminars, and sending 
        out mailings to recently discharged veterans and Selected 
        Reserve personnel
        *7) Provide advice and guidance to veterans, guard, reservists, 
        and other GI Bill benefit recipients, as well as educators, 
        trainers and others who counsel veterans
        *8) Training VA School Certifying Officials at all educational 
        institutions and job training establishments
        *9) Assist the Federal Government in eliminating waste, fraud 
        and abuse

    * Missions expanded as a result of Post-9/11 GI Bill

    Mission Expansion: The Post-9/11 GI Bill has dramatically changed 
the work requirements for the SAAs, specifically the last four (4) of 
the nine (9) missions listed above. What follows will be a 
justification for the additional staffing, and other resources for SAAs 
which are the direct result of the new GI Bill. Staffing and resources 
are, in turn, dependent upon adequate funding.

    Mission #6--Outreach functions: Because many aspects of precisely 
how GI Bill tuition and fee portions of the educational benefits will 
be distributed to schools and what benefit recipients will be receiving 
will be entirely different as of 8/1/09, and because school officials 
and individual benefit recipients are eager for information, SAAs are 
being inundated with phone calls, requests for formal briefings, 
requests for slides and written information.

    Given the complexity of the new GI Bill, SAAs are not anticipating 
any letup for the foreseeable future on these types of requests for 
information. Over the next year, many in the veterans' education field 
are anticipating continuing changes and further refinements to policies 
and procedures.
    The new GI Bill bumps up against many other preexisting benefits 
such as State National Guard Tuition Assistance, Federal National Guard 
Tuition Assistance, State Tuition Assistance Programs for Combat and/or 
other types of Veterans, etc., and most of the effected Agencies and 
Organizations are also clamoring for details and information regarding 
the new GI Bill.
    In short, the onslaught of information requests have exploded and 
the expansion of that SAA missions must be considered when establishing 
the proper staffing of the SAAs. This is going to require a significant 
increase in the current funding levels.

    Mission #7--Guidance to benefit recipients and others: This, while 
similar at the moment to the outreach above, will change dramatically 
after the new GI Bill goes into effect.

    First, because the school officials tend to know SAA personnel, 
they frequently call directly with in-depth questions and problems. 
Both questions and problems are likely to swell soon after the 
effective date of the Post-9/11 GI Bill thereby increasing phone and 
email traffic, and school officials requesting SAA technical assist 
visits.
    Second, many students are referred to SAA personnel by VCOs and 
other school officials. The need to respond to the immediate demands of 
education benefit recipients with time sensitive concerns is a pressing 
matter and requires careful and, at times, delicate treatment.
    Third, when these time sensitive concerns and pressing matters, 
i.e., congressional inquiries and other exacting interactions, are 
rushed or can not be given timely consideration due to inadequate SAA 
staffing, additional problems arise for all concerned. A fully funded 
SAA staffing would alleviate this problem.
    Finally, additional SAA funding will be needed to address the 
increased dissemination of information and problem solving that will be 
created by the Post-9/11 GI Bill and its Yellow Ribbon component. This 
increased tasking will increase exponentially as the GI Bill goes 
forward and that, in turn, will increase the SAA's operating costs.

    Mission #8--VCO Training: As introduced above, the amount of 
training now required by school officials (VCO or SCO) has increased in 
the wake of the Post-
9/11 Bill. This is particularly true with respect to the reporting 
requirements for housing and tuition and fee rates.

    Chapter 33 imposes a series of brand new and complex tasks which 
School Officials, of varying levels of expertise, will be required to 
undertake. It is difficult to capture a true sense the scale and 
enormity of the information which must be conveyed, and in many cases 
then revisited again with various School Officials and others. School 
officials, who up until now, have had little to do with either the VA 
or the SAAs, are being brought into the mix as a result of the direct 
tuition payment provisions of the new bill, and massive requests for 
assistance from the SAAs are emerging and will continue to grow.

    Mission #9--Prevention of Waste, Fraud and Abuse: Perhaps none of 
the missions discussed so far will require more additional SAA manpower 
to carry out properly the than prevention of waste, fraud, and abuse. 
Fact is, changes in rate of pursuit, which under the Montgomery GI Bill 
would have had negligible consequences, will now have an enormous 
impact.

    One must bear in mind that overpayments are typically caught only 
by the combination of vigilant supervisory visits where extensive and 
comprehensive record checks are conducted by the SAA personnel, and/or 
by thorough compliance surveys by VA personnel. Only additional 
manpower resources will make it possible to ensure that any changes in 
rate of pursuit or residency are caught and reported.
    The new provisions of the Yellow Ribbon program may generate 
considerable overpayments. Supervisory visits will now have to ensure 
that the school has followed all of the correct procedures with respect 
to the special case of these Yellow Ribbon overpayments.

    Summation: The SAAs have not had an increase in funding in the last 
four (4) years. When Chapter 33 was announced, the VA was allowed to 
conduct a significant hiring of over 500 new personnel in recognition 
of the additional work burdens imposed by the Post-9/11 GI Bill.

    The SAAs, by contrast, have not been in a position to hire even 
though the Post-9/11 workload has ballooned for these agencies as well. 
The benefit stream flows through the SAAs as well as the VA, and 
without a fully functioning SAA, veterans and other benefit recipients 
will not receive their educational benefits in a smooth, orderly, and 
timely fashion.
    SAAs/States need funding stability in order to maximize their 
contributions to the success of the GI Bills. A predictable stream of 
funding allows States to plan and execute activities to meet the needs 
of veterans and the requirements of the law. Many SAAs are comprised of 
one full time professional staff person--some have only a part time 
person.
    Program approval and monitoring activities, especially those 
associated with apprenticeship and other on-the-job training programs, 
require expertise and timely action. A predictable stream of funding 
also means providing some level of flexibility of SAAs to access 
additional funds from those available nationally, should the need 
arise. The lifting of personnel hiring freezes within a state or a 
sharp increase in veteran participation in job training programs, for 
example, place additional demands upon an SAA's budget. Many times 
these shortfalls can be met if the opportunity to use remaining Federal 
funds is available through the supplemental process.
    Section 3674(a)(4) specifically provides the amount of the funds 
that will be made available to states to carry out their 
responsibilities. The fact that the amount is specifically stated in 
law and is viewed as a non-discretionary expenditure highlights the 
importance that the Congress has placed on state involvement in the 
administration of the GI Bills and state's commitment to our Nation by 
insuring that the GI Bills remain the premier educational assistance 
programs in our country, bar none. Veterans deserve no less.
   Section III. Answers to specific questions posed by the committee.

Q. How is funding allocated across the 50 states: How is funding 
        determined per state for each SAA agency?
    Beginning in Fiscal Year 2008, the United States Department of 
Veterans Affairs implemented a new funding formula for allocating 
funding to each of the State Approving Agencies. This formula used 
three factors, active facilities, a cost of living factor, and a 3-year 
rolling average, to determine a State Approving Agency's allocation.
    The VA defines an active facility as an approved institution of 
higher learning, non-college degree program, apprenticeship, or on-the-
job training program, in which a veteran received GI Bill benefits for 
training at a facility at any point during a defined period. This 
period has generally encompassed a twelve-month period ranging from 
April 1 to March 31 of the following year.
    The VA used the Office of Personnel Management's locality payment 
from the wage scales for Federal employees to provide a cost of living 
factor in their funding allocation formula. The VA formula used the 
headquarters of the State Approving Agency to determine each State 
Approving Agency's locality payment.
    To determine each State Approving Agency's allocation, the VA first 
determines the number of total active facilities for each State 
Approving Agency. In doing so, the VA counts both apprenticeship and 
on-the-job training programs as only one-half (\1/2\) of an active 
facility, while it counts institutions of higher learning and non-
college degree programs as one (1) active facility.
    Once the VA computes the total count of facilities per State 
Approving Agency, they then multiply this number by the locality factor 
to determine an adjusted total active facility count.
    The VA then adds up the adjusted active facility count for each 
State Approving Agency to determine the national total of adjusted 
active facilities, and then divides each State Approving Agency's 
adjusted active facilities count by the national total of adjusted 
active facilities count to determine each State Approving Agency's 
percentage of the total appropriation.
    For instance, if a State Approving Agency had 100 adjusted total 
facilities and the national adjusted facility total was 10,000, this 
State Approving Agency would receive 1 percent of the total 
appropriation for State Approving Agencies.
    The last step in the State Approving Agency funding allocation 
formula is the application of a 3-year rolling average. In applying 
this step, the VA was attempting to alleviate major variances in 
funding from one fiscal year to another and to level funding over a 3-
year period.

Q. Provide a breakdown of how funding is spent.
    The SAA funding is based on a cost reimbursement model. As outlined 
in Article IX of the definitive State Approving Agency contract, funds 
are provided for ``salary and fringe, travel, administrative allowance, 
and outreach.''
    SAA salaries tend to vary rather widely from state to state, due to 
the fact that the 59 separate SAAs are found in a total of 22 types of 
different agencies within the various states. Each SAA has its own 
salary structure, and each is unique as a function of the prevailing 
regional economic condition.
    The fringe costs would again be unique by state, as the cost of 
health care and the retirement arrangements vary widely.
    Travel costs vary not only as a function of the prevalent economic 
conditions in a given region, but also as a function of the size and 
population density of the state as well as the number of offices the 
SAA runs, and whether personal, state, or rental cars are used, etc.
    The administrative allowance pays for items such as computers, fax 
machines, copiers, shredders, and office furniture, rent, phones, 
utility bills, office supplies and the like.
    Outreach costs can cover printing, advertising, required travel, 
postage, media costs, and all of the attended costs which surround 
getting the information out regarding Chapter 33.
    In short, SAA funding is converted directly into service to 
veterans by having the staff necessary to conduct approval visits, 
technical assistance, training, supervision, outreach, etc.

Q. What is the structure of the State staffing level:
    Historically, SAA staffing funding formulas were negotiated by the 
NASAA Contract Committee Chair and the Education Services Director as 
prescribed in DVA M-22. During that period parties concerned developed 
a staffing formula based on a ratio of active institutions to the 
number of field professionals.
    In FY08 DVA changed the funding formula by changing count ratio 
from the prior IHL/NCD:APP/OJT ratio from 1:1 to 1:0.5. This 
significantly changed each agency's percentage of the national 
workload, and this, in turn, resulted in some states being underfunded 
and some states being overfunded. This situation can be mitigated 
through the ``supplemental funding process'' which redistributes de-
obligated funds from those states who could not expend their total 
contract amount to those states needing to be made whole because of 
underfunding.
    Presently, SAA staffing level structure is based on its percentage 
of a national workload average without regard to salary structure.
    The structure of State Approving Agencies' staffing varies from 
state to state. Although there are standard Federal qualifications for 
an SAA professional positions, each state ultimately determines 
professional qualifications and pay grades, e.g., New York State SAA 
professionals must possess a graduate degree and have significantly 
higher or vocational education work experience, whereas, other states 
have different, and, in many cases, lesser qualifications.
    Therefore, there is no one single staffing structure because each 
state operates as an independent entity. The present funding formula 
does not take this variable into consideration when allocating Federal 
funds to the state. This contributes to some states being overfunded 
and others underfunded.

Q. What type of outreach are the SAAs specifically doing for the Post-
        9/11 GI Bill and other programs (i.e. radio advertisements, 
        handouts, etc)? Please provide a breakdown of outreach efforts.
    State Approving Agencies have always conducted extensive outreach 
programs designed to educate all concerned parties including veterans, 
VSOs, college and university officials, employers, and the general 
public, and presentations are routinely made to professional 
associations, public and private fraternal organizations, as well as 
TAP briefings concerning all the Chapters of the GI Bill are regularly 
scheduled to all military installations.
    SAAs use all types of outreach materials including: mailings to 
veterans, posters/advertisements to key public and private 
institutions, and monthly newsletters to National Guard, reservists, 
and recently separated veterans. In addition, NASAA has developed films 
and CDs to be used in public service announcements and to be presented 
in public meetings, to veterans' service organizations, and workshops, 
and advertisement is provided via billboards and posters while TV and 
radio interviews have been conducted on both the local and national 
levels.
    But, the need to bring the schools up to speed on Chapter 33 has 
vastly increased the amount of outreach being demanded of the SAAs. 
Special Chapter 33 workshops are being set up all over the state by the 
VA, National Guard, Air National Guard, the SAAs, as well as the public 
and private IHLs, and IHL consortia. And, the SAAs are being 
overwhelmed by the number of requests they are receiving for 
information sessions regarding the new Bill.

Q. The purpose of the SAA is to approve programs of study, has the role 
        of the SAA grown beyond its original scope? If so how has the 
        role of the SAAs evolved? Please provide specific details and 
        examples.
    The original purposes for the establishment of the State Approving 
Agencies are as relevant today as they were at the close of WWII when 
Congress requested the state's assistance in the administration of the 
Servicemen's Readjustment of 1944, and those have always been to: 
Approve programs of study thereby ensuring the credibility of the 
learning experience in which veterans engage, assist the Federal 
Government in waste, fraud and abuse, and assist veterans in making a 
successful transition from military to civilian world. However, the 
role of the SAAs has definitely grown beyond the original scope.
    In the early years of this decade the SAAs picked up the additional 
outreach mission, and this resulted in expansion of the apprenticeship 
and OJT approvals which increased both GI Bill benefits and SAA 
workload.
    However, as discussed above, the most dramatic role expansion has 
come about directly because of the new requirements which arise from 
Chapter 33.
    Outreach demands have quadrupled, direct guidance to various 
parties through technical assistance, phone, e-mail, and visits have 
been increasing at a staggering rate, the requirement to provide in-
depth training to veterans and school officials is at unprecedented 
levels, and because of the amounts of money involved, the new 
calculational requirements being levied on the Certifying Officials, 
the complexity of the reporting, supervising, and auditing 
requirements, the importance of preventing waste, fraud, and abuse will 
reach new levels.
    SAAs are part of a network and continuum that exists DVA/SAA/VCO/
Benefit Recipient. Now that the tasking for all parts of this network 
has significantly increased, SAAs must be funded and staffed to the new 
missions or the entire chain of benefits will suffer accordingly.
    A specific example of what can arise without sufficient SAA 
resources would be an IHL with a new program which does not make it 
into WEAMS so that the student can receive his educational benefits 
because the SAA did not have sufficient staff to schedule a timely 
supervisory/reapproval visit.

Q. How has the new more expansive role impacted the SAAs ability to 
        provide the services originally intended and is the current 
        funding level sufficient.
    The new more expansive role as outlined in the aforementioned 
testimony has strained and in some cases exceeded the current resources 
of the SAAs: First, funding has remained at the $19 million level for 
four (4) years. During that period the cost of living has increased 
approximately 15 percent. Second, over those 4 years the SAA workload 
has increased significantly particularly since the enactment of the 
Post-9/11 GI Bill.
    Therefore, realistically, the $19 million is an unworkable number, 
and after a careful analysis it was determined that in order to 
efficiently and effectively accomplish the SAAs mission, at a minimum 
an additional $15 million would be need over the next three (3) years.
    The additional funding should be phased in over a 3 year period. 
This 3 year ramp-up, $5 million in 2010, $5 million in 2011, and $5 
million in 2012 would give the SAAs time to systematically higher 
additional staff and increase support activities, i.e., supervision, 
outreach, travel, etc.
    As mentioned earlier, when Chapter 33 was announced the VA was 
allowed to hire over 500 new personnel in recognition of the additional 
work burdens imposed by the Post-9/11 GI Bill. The SAAs, by contrast, 
have not been in a position to hire, because of static funding, even 
though the Post-9/11 workload has ballooned for the SAAs as well. The 
benefit stream flows through the SAAs as well as the VA, and without a 
fully functioning SAA, veterans and other benefit recipients will not 
receive their educational benefits in a smooth, orderly, and timely 
fashion.

               Section IV. Conclusion and SAA Survey Data

    Finally, as part of the effort to explain to the Congress the 
importance that SAAs play in the delivery of educational benefits to 
those entitled we are including some results which we obtained as part 
of an on-going project to develop outcome measurements for State 
Approving Agencies.
    NASAA distributed a survey to school certifying officials to get 
their views on SAAs and their work. Two thousand one hundred and sixty-
six school officials in 21 states responded. About two-thirds of the 
respondents work at colleges or universities, and the rest work at non-
college degree schools or job training establishments.
    Respondents represent states from all regions of the country, and 
there is a balanced mix of small and large states. While the sample was 
not designed as a statistically representative sample, it does appear 
to represent a good cross-section of certifying officials around the 
country.
    Some 60 percent of the respondents have worked with veterans' 
education programs for more than four (4) years, indicating relatively 
broad experience in the sample group. Most respondents spend less than 
half of their work time dealing with veterans' education.
    Acknowledging that the SAAs' primary responsibility is the review 
and approval of education and training programs, the survey sought 
information about other, ``value added,'' services that SAAs provide to 
schools and training facilities. Several significant findings emerged, 
all centered around the issue of how certifying officials get 
information, training, and assistance to do their jobs.
    We asked certifying officials to indicate their primary source of 
training on how to do their jobs, excluding specific training on VA's 
online certification system, VA ONCE. Forty-four percent of those 
responding said their primary source is their State Approving Agency 
(SAA). Twenty-eight percent said VA was their primary source. The 
remainder said that professional organizations and associations served 
as their primary source.
    When asked where they would turn first for answers to general 
questions about VA education programs, 27 percent said they would 
contact their State Approving Agency. Not surprisingly, 70 percent said 
they would contact VA first. Regardless of the source of help, 97 
percent of respondents said they are satisfied with the answers they 
receive.
    In a more specific question, respondents were asked to indicate 
their first source of help for several different issues. Not 
unexpectedly, 82 percent turn first to SAAs for help with program 
approval issues, and 74 percent turn first to VA for status of payment 
inquiries. However, for ``support services,'' 44 percent turn first to 
the SAA and 39 percent turn to VA.
    Eighty-five percent of respondents agreed that their SAA ``explains 
everything to my satisfaction, especially when a problem is 
discovered.'' Seventy-eight percent agree that SAA supervisory visits 
``are informative and helpful.'' More than 86 percent agree that SAAs 
are ``knowledgeable,'' ``dependable and helpful,'' and ``respond . . . 
in a timely manner.''
    An overwhelming 91 percent said that they feel their State 
Approving Agency (SAA) is ``a vital support asset'' to them in doing 
their jobs as certifying officials.
    Based upon these observations, we conclude that State Approving 
Agencies provide--and have for years provided--significant service 
beyond simply approving programs. It is apparent from these data that 
many certifying officials see their State Approving Agency as a 
necessary partner in managing and implementing the various GI Bill and 
VA education programs. Most do not do this work full-time and they need 
to have a responsive source for answers and advice. For many, that 
source is the State Approving Agency.
    SAAs provide significant value-added service to VA through their 
interactions with certifying officials. Timely supervisory visits and 
the information provided during them can reduce the number of questions 
directed to VA staff, reducing the amount of time they must spend 
developing replies. School officials get quicker responses to their 
questions, resulting in better service to veterans.
    SAAs' involvement with certifying officials also provides 
invaluable service to the citizens by helping to address issues of 
fraud, waste, and abuse. Obviously, supervisory visits can uncover 
instances of overpayments to be addressed by VA, but the SAA-Certifying 
Official interaction generally serves to prevent such instances.
    The training and consultation provided by SAAs ensures a better-
trained, more confident certifying official, less likely to make 
mistakes that could lead to benefit overpayments. SAAs' responsiveness 
to their schools and training facilities ensures timely and supportive 
help that enables certifying officials to do a better job.
    Finally, ``the proof is in the pudding'': certifying officials 
agree that what their SAAs do is critical to their own success at their 
schools and facilities. They turn often to SAAs for help when they need 
it and they agree that they get good response.
    Comments from 624 respondents include statements like these:

    They are a great wealth of knowledge and are my first line of 
contact in the chain.

    <bullet>  I have had nothing but the most courteous and prompt 
assistance with any question or problem that I may have had. I do feel 
that the SAA is essential in making my job the most efficient that it 
can be.
    <bullet>  SAA is vital to us. They are always present at our state 
conference to help the new people to VA on handling catalog/program 
approvals. Always willing to answer questions and provide assistance.
    <bullet>  I have always had great service! I wish the _______ 
Regional Office did as good a job at explaining things to veterans when 
they call.
    <bullet>  They are so much more accessible than VA. I always 
receive fast, accurate information from the ____ SAA. They always go 
above and beyond to assist us certifying officials. They make my job 
easier.
    <bullet>  I have found dealing with the VA Educational Liaison 
Representative to be very unhelpful. The SAA liaisons have been very 
helpful.
    <bullet>  The SAA is my first contact with any questions that I 
have. If they cannot answer the question (which is rare) then they 
always point me in the right direction. I manage a very small number of 
veterans, so I do not necessarily become proficient in all aspects of 
the approval process. This means that I rely heavily upon the SAA and 
they have always provided very good assistance.

    In closing, Mrs. Chairwoman, I want to sincerely thank you and this 
subcommittee for the opportunity you have provided NASAA today to 
explain why it is so necessary that the SAAs be given the resources to 
carry out the expanded and critically important missions that arise 
from the implementation of new Post-9/11 GI Bill.

                                 <F-dash>
                 Prepared Statement of Keith M. Wilson,
        Director, Office of Education Service, Veterans Benefits
          Administration, U.S. Department of Veterans Affairs

    Good afternoon Chairwoman Herseth Sandlin, Ranking Member Boozman, 
and Members of the Subcommittee. I appreciate the opportunity to appear 
before you today to discuss the Department of Veterans Affairs (VA) 
education benefit programs and the role of the State Approving Agencies 
(SAAs). My testimony will highlight the role of SAAs in serving the 
needs of VA and our Nation's Veterans. I will specifically address 
program services, staffing, oversight, SAA outreach activities, and 
funding provided by the Post-9/11 Veterans Educational Assistance Act 
of 2008.

Role of the SAAs
    VA and the SAAs work together to ensure the successful readjustment 
of Veterans to civilian life through educational opportunities. VA 
administers educational assistance to eligible Veterans and dependents, 
while the SAAs ensure the quality of the educational and vocational 
programs pursued and monitor the institutions providing education and 
training to veterans.
    Title 38 United States Code establishes the parameters for the 
relationship between VA and the SAAs. Section 3671 requests that each 
state create or designate a state department or agency as the ``State 
Approving Agency.'' SAAs are charged with approving courses in 
accordance with the provisions of chapters 34, 35 and 36 of title 38, 
including apprenticeship programs. They also conduct outreach programs 
and provide outreach services to eligible persons and Veterans about 
education and training benefits available. Under contracts with VA, 
SAAs ensure that education and training programs meet federal VA 
standards through a variety of approval activities, such as evaluating 
course quality, assessing school financial stability, and monitoring 
student progress. VA currently has contracts with 57 SAAs.
    The FY 2009 SAA contracts include efforts to support the Post-9/11 
GI Bill, which is effective August 1, 2009. While the role of the SAAs 
generally remains the same, the contract requires the SAAs to perform 
duties that support all other VA education programs in addition to the 
Post-9/11 GI Bill.
    The SAAs have expanded outreach to ensure awareness of the Post-9/
11 GI Bill, and VA recently used the SAAs to verify their states' 
highest in-state public school tuition and fee rates for the 2008/2009 
and 2009/2010 academic years to support the Post-9/11 GI Bill.

GAO Report
    In response to a GAO report, ``VA Student Financial Aid: Management 
Actions Needed to Reduce Overlap in Approving Education and Training 
Programs and to Assess State Approving Agencies'' (GAO-07-384, March 
2007), VA implemented a tracking and reporting system and established 
outcome-oriented performance measures to assess the effectiveness of 
the SAAs. VA receives quarterly reports, supervisory visit reports, and 
outreach reports from each SAA. VA uses these reports to monitor SAA 
performance. SAAs also submit quarterly reports on the number of 
approvals and supervisory visits completed, technical assistance 
provided, outreach conducted, and staff training completed during the 
quarter.
    VA developed performance measures to improve the efficiency and 
effectiveness of the SAAs. The performance measures were implemented on 
November 1, 2008, and provided to the SAAs with their fiscal year (FY) 
2009 contracts. The performance measures include performance targets 
and methods for SAA approval activities and supervisory visits. One 
measure requires the SAAs to visit 80 percent of their assigned active 
educational institutions and training establishments, while other 
measures require the SAAs complete 90% of the program-approval packages 
within 30 days of receipt of the completed application package; obtain 
a Joint Peer Review Group rating of satisfactory; and respond to 95% of 
the program-approval inquiries within 14 days.

Staffing and Funding for SAAs
    The current SAA staffing levels are adequate based on the number of 
active facilities in each state. These staffing levels provide for the 
successful completion of SAA contract responsibilities. VA's focus is 
on outcomes. Therefore, VA primarily concentrates on whether or not 
contractual obligations are met and less on the specific staffing 
levels utilized to meet the requirements.
    The present SAA funding allocation model has been used since FY 
2007 and was developed with input from the SAAs. The allocation is 
based on active institutions within each state. Active institutions 
include both institutions of higher learning (IHLs) and non-IHLs such 
as apprenticeship and on-the-job training (OJT) programs. All funds 
provided by statute are allocated at the beginning of the year. Each 
SAA receives a proposed contract toward the beginning of each year 
specifying the dollar amount of the contract. The SAA then provides a 
business plan that delineates the proposed actions and performance 
levels it will accomplish for the specified contract amount. If the 
business plan is accepted by VA, VA and the SAA enter into a binding 
contractual obligation to provide all services in the SAA's business 
plan for the dollar amount offered.
    The SAA's reimbursement contracts require that SAAs provide salary, 
travel, administrative expenses, outreach activities, and subcontract 
(if needed) dollars annually. The current $19 million funding level 
provided by the Post-9/11 Veterans Educational Assistance Act for 2008 
is sufficient to meet SAA contracted requirements. Normally, all 
statutory funds available for SAAs are not expended. Often, SAAs will 
return funds to VA based on position vacancies, reduced travel 
expenses, or other unanticipated reductions in funding needs. 
Traditionally, funds remaining at the end of each FY are redistributed 
to SAAs to support efforts conducted beyond the minimal requirements of 
the contract. These supplemental awards are approved on a case-by-case 
basis.

SAA Outreach
    VA continues to monitor the outreach activities of the SAAs. The FY 
2009 SAA contracts were revised to require the SAAs to provide outreach 
visit reports to VA. In addition, VA requested SAAs complete an 
outreach questionnaire in April 2009 on specific efforts related to the 
Post-9/11 GI Bill. The questionnaire responses and the outreach visit 
reports indicate SAAs are performing specific outreach for the Post-9/
11 GI Bill. Some examples are: a 6-week radio campaign that highlighted 
the Post-9/11 GI Bill; letters regarding the Post-9/11 GI Bill provided 
at Transition Assistance Program briefings; newsletters; Governor's 
letters to recently discharged veterans; articles in local 
publications; presentations on the Post-9/11 GI Bill at school 
conferences, job fairs and veterans and military resource fairs; and 
presentations to military and veterans groups.

SAA Oversight
    VA has enjoyed a longstanding positive relationship with the SAAs. 
As with any relationship, however, we are continually engaged with the 
SAAs to identify areas for improvement. For example, in FY 2008 five 
SAAs received a minimally satisfactory rating or an unsatisfactory 
rating from the Joint Peer Review Group (JPRG). The JPRG evaluates and 
verifies the activities of the SAAs and makes rating recommendations. 
Some of the ratings were based on problems in meeting contractual 
obligations, such as approval return rates or failures to timely 
process approvals. These instances occur rarely. Overall, VA is pleased 
with the performance of the SAAs.

Mission and Recommendations
    The SAAs' mission is clearly defined in statute. The SAAs have 
contributed to the administration of education programs relatively free 
of waste, fraud, and abuse. We and the SAAs are proud of that success. 
As VA education programs and the education community change, we look 
forward to meeting the future challenges.
    The Veterans Benefits Improvement Act of 2008, Public Law 110-389, 
amended 38 U.S.C. 3673 to provide that the Secretary shall take 
appropriate actions to ensure the coordination of approval activities 
performed by SAAs under this chapter and chapters 34 and 35 of this 
title and approval activities performed by the Department of Labor, the 
Department of Education, and other entities in order to reduce overlap 
and improve efficiency in the performance of such activities. In its 
July 2009 report to Congress, ``Coordination of Approval Activities in 
the Administration of Education Benefits.'' VA recommended legislation 
that would give the Secretary authority to act on any findings of 
duplicative efforts. Section 3672 provides that a veteran or eligible 
person may not receive educational assistance unless the program is 
approved by the SAA as provided for under the provisions of chapter 36 
of title 38. In a limited number of situations, the Secretary rather 
than the SAA has jurisdiction of approval of courses and programs. In 
addition, other provisions within chapter 36 provide the criteria the 
SAA must apply when determining whether or not a course or program may 
be approved under chapter 36. For example, section 3675 provides 
criteria for accredited course approval. By statute, the SAA must 
review accredited programs and determine if they meet the approval 
criteria in section 3675. We believe, for example, expanding the 
Secretary's authority to accept registered apprenticeship programs or 
flight approvals from the Department of Labor or the Federal Aviation 
Administration would enable more effective use of SAA resources. Such 
legislation would allow VA to accept some accredited programs without a 
separate evaluation by the SAA.
    VA also suggests in the report that chapter 36 be amended to give 
VA discretion to accept certain courses or programs of education, such 
as accredited programs offered by public institutions, without specific 
SAA approval unless VA determines it is necessary to seek such 
approval. Such amendments, if enacted, could streamline the statutory 
responsibilities of the SAAs and allow for more effective utilization 
of existing resources.
    VA further recommended that chapter 36 be amended to authorize the 
Secretary to utilize the SAAs for compliance and oversight activities 
as the Secretary deems appropriate. This would allow VA to utilize SAAs 
to perform some of the compliance and review visits that VA currently 
conducts. VA may wish to expand compliance reviews to cover more 
records and review more financial information, especially tuition and 
fee charges and administration of the Yellow Ribbon program.
    We believe the proposed amendments would be cost neutral since the 
funding currently utilized to approve programs would be utilized to 
enhance outreach, compliance, and oversight activities.
    Madam Chairwoman, this concludes my statement. I would be pleased 
to answer any questions you or any of the other Members of the 
Subcommittee may have.

                                 <F-dash>
                 Statement of Kathryn M. Snead, Ed.D.,
     President, Servicemembers Opportunity Colleges, Washington, DC

    Thank you for the invitation to testify on the Evolution of State 
Approving Agencies and their link to the Servicemembers Opportunity 
Colleges Consortium of which I am its president. (See my curriculum 
vitae attached.)
    Servicemembers Opportunity Colleges (SOC) functions to expand and 
improve voluntary postsecondary education opportunities for 
servicemembers worldwide. SOC was created in 1972 to provide a vehicle 
to help coordinate voluntary postsecondary educational opportunities 
for servicemembers, many of whom frequently move from place to place 
and experience difficulty in completing college degrees. SOC is funded 
by the Department of Defense (DoD) through a contract with the American 
Association of State Colleges and Universities (AASCU). It is 
cosponsored by AASCU and the American Association of Community Colleges 
(AACC), in cooperation with 13 other American higher education 
associations, all the United States Military Services, the National 
Guard, and the Coast Guard.
    The SOC Consortium, comprised of more than 1800 college and 
university members, enrolls hundreds of thousands of servicemembers, 
their family members, and veterans annually in associate-, bachelor-, 
and graduate-level degree programs on school campuses, military 
installations, and armories within the United States and overseas, and 
through distance learning and learning assessment. SOC Consortium 
institutions have pledged to support the higher education needs of the 
military servicemember. Additional information regarding SOC College 
Consortium Membership and SOC programs and services can be found on the 
SOC Web site: http://www.soc.aascu.org/.
    One of the initial conditions for SOC Consortium Membership is that 
institutions must be approved for veterans' education benefits by the 
appropriate State Approving Agency. Since our organization's inception 
in 1972, we have trusted and relied upon the work of the State 
Approving Agencies to validate the credibility and integrity of the 
educational experiences within each state. We set great stock in their 
professionalism and diligence to make quality determinations about 
educational programs of study. In essence, membership within our 
consortium depends upon the institutional assessment of learning 
experiences conducted by the State Approving Agencies. The expanded 
roles placed on the State Approving Agencies could impact the execution 
of existing services and responsibilities if sufficient funding and 
staff resources do not keep pace with their workload and commitments.
    With the August 1, 2009 rollout of the Post-9/11 GI Bill, it is 
highly anticipated that colleges and universities will experience an 
increase in applications. The Department of Veterans Affairs predicts 
that as many as 100-125,000 additional veterans may use their education 
benefits over the next 2- to 3-year period. It remains uncertain how 
many servicemembers still on active duty will transfer their education 
benefits to spouses and dependent children in the coming years. While 
we may not have exact figures as to numbers of veterans and 
servicemembers who will use their education benefits, the 
implementation of the Post-9/11 GI Bill will significantly expand the 
roles of State Approving Agencies (SAAs). Over the course of the 
current fiscal year and certainly in the next one, the State Approving 
Agency's role will definitely evolve and expand in the following three 
areas:

    1.  SAAs are being held responsible for collecting, verifying, and 
reporting in-state tuition and fees information upon which the payment 
structure of the Post-
9/11 GI Bill is based. This is foundational to the implementation of 
the new GI Bill as currently written.

    2.  SAAs provide outreach functions about precisely how the GI Bill 
tuition and fee portions of the education benefits are distributed to 
schools and what benefit recipients can expect to receive. Both school 
officials and benefit recipients are eager for accurate and timely 
information. SAAs are inundated with requests, albeit by telephone, 
fax, and e-mail, for formal briefings, slides, written information, 
whatever can be made available. Due to established institutional 
relationships within the state, SAAs are expected to provide timely 
outreach and training to institutional certifying officials. SOC has a 
concern of whether this evolving outreach and training function can be 
accomplished given limited resources now being made available to 
support SAAs.

    3.  SAAs have an important mission to help prevent waste, fraud, 
and abuse. The payment provisions and the complexity of the Post-9/11 
GI Bill lend themselves to enormous problems in this area. The new 
provisions of the Yellow Ribbon program alone may well generate 
considerable overpayments. SAA personnel often catch, by a combination 
of vigilant supervisory visits and extensive and comprehensive record 
checks, overpayments. Only through an increase of well-trained manpower 
resources can these functions be managed effectively.

    In recent months we have experienced a significant increase in 
complaints/concerns about inappropriate promotions, advertisements, and 
enrollment inducements from institutions. These advertisements and 
enrollment incentives are targeting the ``new'' veteran market. It 
appears that SOC's Standards of Good Practice don't sufficiently 
address enrollment incentives or inducements that might unduly sway 
servicemembers/veterans in their college decisionmaking process. Though 
I have convened a Task Force consisting of representatives from the 
accreditation community, the higher education associations, and the 
Departments of Defense and Veterans Affairs to help establish a common 
baseline for marketing higher education to servicemembers and veterans, 
the potential for fraud and abuse related to the payment of veteran 
educational benefits requires collaborative efforts across governmental 
agencies and the higher education community to minimize or deter 
fraudulent claims. In their outreach role, SAAs can assist and 
reinforce standards of good practice with school officials to ensure 
good practice in their institutional marketing and advertising. SAAs 
are well positioned within their states to observe, identify, and 
eliminate fraudulent/abusive practices. But they must be resourced 
appropriately in order to perform their missions.
    In this testimony I elect to emphasize one final specific aspect of 
the informational challenge that both military students and veterans 
face when accessing postsecondary education: access to accurate AND 
appropriate college information. Many of our servicemembers and 
veterans are first generation college applicants who lack general 
knowledge about the college search, selection, and admission process. 
They rely heavily upon the guidance and assistance of college 
admissions personnel as their primary source of reliable information. 
The outreach roles that SAAs have undertaken are paramount for insuring 
that college personnel have accurate knowledge and training to help 
veterans and their families access the correct information sources, 
procedures, and necessary support for enrolling in postsecondary 
education. They have established excellent rapport with institutions of 
higher learning in their states and have become a trusted source of 
accurate information for the higher education community. SAAs' pivotal 
informational role is extremely important so that veterans are 
appropriately advised and enrolled by college personnel.
    We welcome partnership opportunities to limit and prevent abusive 
practices. SAAs are well positioned within their states to observe, 
identify, and eliminate fraudulent/abusive practices. But they must be 
resourced appropriately in order to perform their missions.

                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      July 20, 2009

The Honorable Timothy H. Bishop
U.S. House of Representatives
306 Cannon House Office Building
Washington, DC 20515

Dear Congressman Bishop:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Hearing on 
Subcommittee on Economic Opportunity ``The Evolution of State Approving 
Agencies'' on July 16, 2009. Please answer the enclosed hearing 
questions by no later than Monday, August 31, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
                               __________
   Follow-up Questions from the House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
          Hearing on The Evolution of State Approving Agencies
                             July 16, 2009
                        Submitted for the Record

    1.  As an administrator at the Southampton College in Southampton, 
New York, were there any problems or concerns that you felt needed to 
be improved upon concerning the SAA's?

        a.  If so what would you change or improve?

    Answer: As the Provost of Southampton College, I do not recall 
receiving any complaints concerning the approvals for the GI Bill or 
the veterans' certifications.

    2.  In your testimony you said that you were visited once a year by 
an SAA representative. Was that enough or do you think your school 
would have benefited from more visits?

    Answer: At the time, once a year appeared to be enough. However 
with the onset of the Post-9/11 GI Bill, more visits may be necessary.

    3.  What was the number one concern that student veterans had at 
Southampton College?

        a.  Were the SAA's able to resolve the problem?

    Answer: The veterans' worst problem would have been to sign up for 
a program that was not approved and have the claim denied for this 
reason. One purpose of the annual visits was to update the approvals 
and, for the most part, this problem was avoided. When problems did 
occur, however, the SAA always acted very quickly to get the program 
approved and the vet paid.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      July 20, 2009

Mr. Mark Walker
Deputy Director, National Economic Commission
The American Legion
1608 K Street, NW
Washington, DC 20006

Dear Mr. Walker:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Hearing on 
Subcommittee on Economic Opportunity ``The Evolution of State Approving 
Agencies'' on July 16, 2009. Please answer the enclosed hearing 
questions by no later than Monday, August 31, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
                               __________
                                                    American Legion
                                                    Washington, DC.
                                                    August 31, 2009

Honorable Stephanie Herseth Sandlin, Chair
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Dear Chair Herseth Sandlin:

    Thank you for allowing The American Legion to participate in the 
Subcommittee hearing on The Evolution of State Approving Agencies on 
July 16, 2009. I respectfully submit the following in response to your 
additional questions:
1. Are there any portions of the SAAs current missions that are better 
        suited for the VA?
    Currently, VA is overwhelmed with the current workload. They have 
neither the experienced personnel nor the time or travel budget to 
assume SAA responsibilities. At this point in time, we do not believe 
any SAA functions should be transferred to the VA as the SAA's are the 
liaison to the education/training community, military organizations, 
veteran service organizations (VSOs) and veterans at the State and 
local level.
2. If the SAAs were abolished today what would be the result?
    If the SAA were abolished the SAA missions would be assumed by the 
VA; consequently, service to America's veterans would suffer as would 
the quality of education received by GI Bill recipients. The VA is 
becoming a regional processing center designed to pay veterans benefits 
with a limited capability to interact with the veteran education 
community at the State and local level. It is the SAA that meets and 
deals with GI Bill constituencies: universities/college official, 
veteran certifying officials, VSO, non-degree school owners, employers, 
and most importantly veterans. As previously mentioned, VA is stretched 
to the limit and overwhelmed now with education benefits payment 
processing and does not have the necessary resources, i.e., experienced 
personnel and travel budget to assume the additional taskings that 
would be required. SAA personnel are already qualified, State employees 
and cost less than Federal employees as their retirement is borne by 
the respective States and not by the Federal taxpayer. Also, the reason 
SAA's were created stems from the fact education remains a 
constitutionally mandated State not a Federal, responsibility. The 
American Legion supports SAAs and recommends $24 million for their FY 
2011 budget so they can handle their expanded missions in light of the 
Post-9/11 GI Bill.
    Thank you for your continued commitment to America's veterans and 
their families.

            Sincerely,

                                       Mark Walker, Deputy Director
                                       National Economic Commission

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      July 20, 2009

Mr. Raymond C. Kelley
National Legislative Director
AMVETS
4647 Forbes Boulevard
Lanham, MD 20706

Dear Mr. Kelley:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Hearing on 
Subcommittee on Economic Opportunity ``The Evolution of State Approving 
Agencies'' on July 16, 2009. Please answer the enclosed hearing 
questions by no later than Monday, August 31, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
                               __________
                AMVETS' Response to the Subcommittee on
          Economic Opportunity Hearing Held on July 16, 2009,
             ``The Evolution of State Approving Agencies''

    1.  In your testimony, you state AMVETS is concerned that the SAAs 
spend 36 percent of their time approving and reviewing programs. In 
your opinion how much time should the SAAs spend approving and 
reviewing programs?

    It is hard to determine the amount of time that should be spent 
approving and reviewing programs. Without a breakdown of which programs 
are co-approved by a regional or national accreditation or the 
Department of Education, determining time allocation is impossible. A 
metric must be developed to identify overlap of approving practices. 
Until this is done, there will be no way to accurately allocate time. 
It is AMVETS' belief that with so many other accrediting organizations 
fulfilling similar roles, that approving and monitoring programs should 
consume the least amount of time while focusing more time and resources 
on ensuring that institutions understand their role in ensuring student 
veteran success.
    Regional accreditation standards are much more in depth than SAA's. 
Depending on the organization, regional accreditations consist of nine 
to 14 subject areas with multiple subcategories. In AMVETS research, it 
appears that all the criteria that SAA approved programs must achieve 
are meet by these regional accrediting organizations. The Council for 
Higher Education Accreditation (CHEA) has approved seven regional, two 
national, four faith-based, and 46 programmatic accrediting 
organizations. It appears that each of these organizations assess the 
five criteria the SAA uses to approve a program. They are: (1) 
recordkeeping of student progress; (2) recordkeeping of student's 
previous education; (3) quality, content and length of courses; (4) 
qualifications of administrators and instructors; and (5) equipment, 
space, and instructional materials. AMVETS recommends that based on the 
breath and depth in which these organizations accredit institutions, a 
study should be conducted to see which of these organizations meet the 
SAA criteria and when they do SAA should accept the accrediting and 
invest SAA accrediting and review time to those programs not covered by 
other approving organizations.

        a.  What else should they be doing with their time?

    The complaints AMVETS receives from student veterans are not that 
the program they what to enroll is not accredited, or that they thought 
the program was accredited, but rather that the institution does not 
understand the claims process and that the individual claim has been 
mishandled by the certifying official and subsequently the veterans' 
benefit is late and all too often the veteran has been disenrolled for 
not paying their tuition. Also, there are continuous questions 
specifically related to educational benefits. These are two roles that 
fall under the purview of SAA. AMVETS believes that the majority of 
SAA's time should be spent ensuring institutions know their 
responsibilities in assisting veterans and reaching out to veterans in 
the local communities so there is a broader understanding of the 
veterans educational benefits.

    2.  In your testimony, you said that the VA developed the Joint 
Peer Review Group (JPRG). Why does AMVETS fell that the JPRG does not 
provide accountability of the SAA resources?

    Public Law 100-323 requires annual JPRG to meet and evaluate the 
performance of the individual SAAs. This oversight measure was enacted 
to ensure veterans are receiving the highest quality education our 
country has to offer. VA's SAAs were implemented to carry out this 
oversight and reportedly add value to VA's approval process through 
focusing on student services for veterans, ensuring the integrity of VA 
benefits, providing more frequent on-site monitoring of education and 
training programs that are provided by other agencies, and assessing 
and approving a small number of programs that are not reviewed by other 
agencies.
    Unfortunately, VA has no way of actually verifying and tracking the 
actions routinely preformed by the SAAs and JPRG has not implemented 
any type of outside audit of performance. This concern has been 
presented to Congress numerous times and was even the subject matter of 
a 2007 OIG report. The first reason AMVETS believes that the JPRG are 
not accurate in measuring real performance measures due to the fact 
that most are self evaluations. AMVETS finds it even more concerning 
that not all SAAs even provide JPRG with their requested self 
evaluations. This lack of oversight by JPRG and VA's tolerance of such 
behaviors cannot and will not lead to a successful and effectively run 
program.
    Secondly, neither JPRG nor VA measures the various outputs 
resulting from SAA activities such as the number of supervisory visits 
conducted; this lack of outcome performance measures makes it difficult 
to assess the significance of such activities and the overall 
effectiveness of SAA personnel. AMVETS recommends the development and 
immediate implementation of uniformed outcome measures to be used, so 
that JPRG and VA can have a standard system in which they can fully 
evaluate SAA performances. This is vital to protecting the integrity of 
the overall program and ensuring the contractual agreement between VA 
and the various SAAs' is upheld, and that all SAA personnel are 
continually updated and trained to current protocol.
    How can we know how effectively the JPRG is at evaluating and 
reviewing SAAs when there is no data provided or standardized measures 
to compare it to? JPRG is suppose to be ensuring that SAA is providing 
local resources to investigate alleged violations of VA education 
regulations, community outreach, as well as representing VA in many 
program oversight functions. To ensure all proper activities are taking 
place AMVETS recommends annual program overview audits of random SAAs 
already evaluated by JPRG to have reliable data to compare and to 
ensure that Federal dollars are spent efficiently and the services 
promised to our veterans are being delivered.
    It is noted that neither SAA nor JPRG personnel are VA employees, 
but rather contractors hired by. As with any Federal contract 
transparency an evaluation process will yield clearer standards, better 
performance and a significant savings in funds for VA. Field auditors 
must know that management and central office reviewers have full 
visibility and access to their data and results. This should also be 
true for central office personnel. These practices of contract 
management help implement a procurement program designed around 
successful results and accountability. SAA has been awarded a contract 
of managing and improving the educational futures of our veterans' 
community and Congress must hold all parties involved accountable.
    AMVETS was pleased to see that VA had begun providing performance 
measures for SAA; however, each of the measures they suggested in 
testimony only evaluated efficiency, not effectiveness. AMVETS suggests 
that performance measures be designed to evaluate both efficiency and 
effectiveness.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      July 20, 2009

Mr. Patrick Campbell
Chief Legislative Counsel
Iraq and Afghanistan Veterans of America
308 Massachusetts Avenue, NE
Washington, DC 20002

Dear Mr. Campbell:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Hearing on 
Subcommittee on Economic Opportunity ``The Evolution of State Approving 
Agencies'' on July 16, 2009. Please answer the enclosed hearing 
questions by no later than Monday, August 31, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
                               __________
               U.S. House Committee on Veterans' Affairs,
                  Subcommittee on Economic Opportunity
             ``The Evolution of State Approving Agencies''
 Follow Up Questions, Patrick Campbell, IAVA Chief Legislative Counsel

    1.  Do you believe that visiting schools once every 1-3 years is 
sufficient to monitor the school program?

    After attending the annual Western Association of Veterans 
Education Specialists (WAVES) convention in Oklahoma last month, the 
true oversight role that State Approving Agencies play during the 
certification process crystallized in my head. IAVA believes that 
annual visits by the State Approving Agencies play a critical role in 
preventing numerous enrollment certification errors. This saves the VA 
more than the cost of the State Approving Agencies are currently 
allocated each year.
    In addition to approving each campus as a VA approved education 
program, State Approving Agencies audit the GI Bill records of that 
campus. The State Approving Agency compares the enrollment 
certifications from that school to the information the school provides 
to the State Approving Agency for GI Bill accreditation. If the State 
Approving Agency finds any errors they work with the school certifying 
official to reconcile the books and investigate if the error was an 
isolated incident or systemic. This annual auditing process gives the 
certifying officials regular critical feedback which prevents filing 
errors in the future. If the school certifying official fails to 
reconcile the books or comply with the audit the school risks losing 
their VA approval. This is a powerful incentive to comply.
    IAVA believes that State Approving Agencies should be conducting 
annual review of all VA approved programs.

    2.  Can SAAs spend their time better focusing more on trade 
schools, 2 year colleges and other small programs?

    IAVA believes strongly that by simply focusing State Approving 
Agencies on a particular type of educational program, such as trade 
schools, the VA would lose crucial annual audits of GI Bill 
certifications. The generally high turnover of school certifying 
officials would result in schools receiving only limited feedback from 
the VA without the State Approving Agencies annual auditing process.

    3.  How can we know the true value of the SAAs without an 
accounting of time, resources, and outcome measures to properly gauge 
the effectiveness of the SAAs?

    The true value of State Approving Agencies is difficult to quantify 
without clear reporting of performance and outcome measures. IAVA 
believes that in order to strengthen the quality of State Approving 
Agencies auditing and approval procedures, clear performance measures 
should be outlined and assessments should be made public.

    4.  Do you think that the outreach and GI Bill information session 
provided by the SAAs to colleges and universities are duplicative work 
that the VA and other agencies already provide?

    Outreach to veterans and school officials about the new GI Bill 
requires an ``all hands on deck'' approach. Even with the work of the 
VA, State Approving Agencies, Members of Congress, and the VSO's, many 
veterans still do not understand how the new Post-9/11 GI Bill benefits 
work.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      July 20, 2009

Mr. Justin Brown
Legislative Associate, National Legislative Service
Veterans of Foreign Wars of the United States
200 Maryland Avenue, SE
Washington, DC 20002

Dear Mr. Brown:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Hearing on 
Subcommittee on Economic Opportunity ``The Evolution of State Approving 
Agencies'' on July 16, 2009. Please answer the enclosed hearing 
questions by no later than Monday, August 31, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
                               __________
                  JUSTIN BROWN, LEGISLATIVE ASSOCIATE
                      NATIONAL LEGISLATIVE SERVICE
             VETERANS OF FOREIGN WARS OF THE UNITED STATES
                   RESPONSE TO QUESTIONS SUBMITTED BY
                       CHAIRWOMAN HERSETH SANDLIN
                     SUBMITTED ON SEPTEMBER 1, 2009

    1.  In your testimony you list 15 missions for the SAAs. In your 
opinion are any of those better suited for Federal agencies?

    The responsibilities listed reflect the roles of SAA's today. 
Mission statement 7 under NASAA's list, in our testimony, suggests that 
NASAA are providing direct GI Bill information to veterans. The VFW 
believes that the most likely conduit for this information should be to 
either the school of the veteran's attendance or the VA. However, SAA's 
should be providing similar information to institutions that have 
questions about the benefit and its implementation.

    2.  In your testimony you state that overpayments and underpayments 
will be the most manpower intensive mission. How is this possible if 
the VA has not made a single payment nor do we know how accurate the VA 
payments will be in the future?

    Our testimony states ``NASAA has singled this issue out as perhaps 
its most manpower intensive mission in consideration of the changes due 
to the Post-9/11 GI Bill.'' If a student changes, adds, or drops 
classes they are potentially changing their rate of pursuit, which 
could lead to resource intensive over and under payments.

    3.  Should the mission of the SAAs be curtailed to fit the $19 
million?

    SAA's are currently operating at the funding level of $19 million. 
The VFW maintains SAA's are underfunded in consideration of their 
mandated mission. The large increase in the number of veterans 
attending college calls for additional resources for SAA's to implement 
the new GI Bill at the local level. The complicated bill specifically 
demands a great deal of informational resources for schools and 
institutions, which is a mission that SAA's have continued to provide. 
Also, due to the sheer size of the new GI Bill more educational 
programs are going to apply for eligibility, which will further strain 
available resources.

    4.  If the funding for the SAAs was increased to $24 million, what 
more would the SAAs be doing that is not being done now?

    Amply providing the services they have been mandated to do. The VFW 
maintains SAA's are underfunded in consideration of their mandated 
mission. As stated in our testimony, SAAs workload is already 
dramatically increasing. Without a similar increase in resources, 
certain responsibilities will be neglected thereby decreasing the 
programs overall quality for veterans and reducing the insurance of a 
quality investment for our Federal Government. For the GI Bill to 
remain the first-rate program it is today, SAAs must have the necessary 
funding to maintain their critical mission.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      July 20, 2009

Mr. Charles Rowe
President
National Association of State Approving Agencies
Eggert Crossing Roads
P.O. Box 340
Trenton, NJ 08625

Dear Mr. Rowe:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Hearing on 
Subcommittee on Economic Opportunity ``The Evolution of State Approving 
Agencies'' on July 16, 2009. Please answer the enclosed hearing 
questions by no later than Monday, August 31, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
                               __________
             National Association of State Approving Agencies, Inc.
                                                     Harrisburg, PA
                                                    August 28, 2009

The Honorable Stephanie Herseth Sandlin
Chairwoman
Veterans' Affairs Subcommittee on Economic Opportunity
United States House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Dear Madam Chairwoman:

    The members of the National Association of State Approving Agencies 
(NASAA) thank you and the Committee Members for the opportunity to 
provide additional information on the role and responsibilities of 
State Approving Agencies (SAAs). We sincerely appreciate your time and 
consideration. During our recent Annual Training and Business 
Conference, I was elected President. I have been active in the 
association for over 22 years and was the Vice-President for the 
previous 2 years.
    As you are aware, the role and history of the SAAs dates back to 
services provided to World War II veterans. Since the first GI Bill, 
SAAs have worked with the U.S. Department of Veterans Affairs (DVA) to 
ensure effective implementation of the various GI Bills. The location, 
size, and exact mission of each State Approving Agency (SAA) have 
varied depending upon the needs of a particular state.
    In short, SAAs are the ``face of the GI Bill at the State level.'' 
We do work closely with DVA staff (both those stationed in State and at 
the Regional Processing Offices). An important fact to remember is that 
there are at least 14 States that do not have any educational DVA staff 
in the State. We feel that each SAA works with the DVA staff (either in 
State or out of State) to accomplish the overall mission of serving 
veterans/reservists/dependents and Certifying Officials.
    Enclosed are the responses for the record to the 13 questions. In 
gathering the necessary information to respond, a survey was sent to 
all SAAs. We also obtained data from DVA Central Office concerning 
contract related items. We have included detailed information that 
hopefully will provide the necessary clarification. If there are 
additional questions or other information needed, please feel free to 
contact me. In addition, we would be available for another hearing.
    We sincerely hope that this information provides sufficient 
documentation to warrant our increase in funding. Also, enclosed is an 
example of the type of outreach SAAs do. NASAA produced the enclosed 
video concerning the Post-9/11 GI Bill. You will see that we worked 
with DVA staff. We will distribute this video to Members of Congress, 
Governors, the various service organizations, Department of Defense 
staff, DVA staff, and other interested individuals.
    We firmly believe that the GI Bill should be the premier education 
and training program in this country. By everyone working together, we 
can deliver the benefits that have been earned by our veterans. They 
deserve nothing less.

            Sincerely yours,

                                                William D. Stephens
                                                          President

Enclosures 2
                               __________

1.  Under Mission number 7 you are seeking additional funding, among 
        other reasons, to hire additional staff. How many additional 
        full-time employees do you require?
    Based upon the survey response that the National Association of 
State Approving Agencies (NASAA) conducted with all State Approving 
Agencies (SAAs), there would be an increase of 80 full-time staff 
equivalent. The potential for hiring additional staff by individual 
SAAs is influenced by several factors. The primary factor is funding 
under the reimbursement contract that is administered by Department of 
Veterans Affairs (DVA). Another factor is the internal State hiring 
practices and in some States there is a current freeze on hiring new 
staff. It is important to note that due to the way a State Approving 
Agency (SAA) functions within some States, not all new hires would be 
full-time staff.

    Additional points to consider in the area of staff funding include 
the following.

    a.  Some SAAs do not have adequate funding to provide for current 
staff to complete terms of the contract. These SAAs utilize supplements 
at the end of the contract year for the necessary additional funding.

    b.  With a cap on funding at $19 million, there is no expansion in 
funding to allow for natural and required cost increases for the 
current staff levels (e.g. State union wage progression requirements).

    c.  Agencies have not been funded for the additional work we are 
providing under the massive expansion to the GI Bill.

    The above items will obviously impact SAAs ability to meet the 
terms of the requirements of law and Congressional intent. Our position 
is that the workload has increased proportionately for both DVA and the 
SAAs. Before the new GI Bill, the DVA had approximately 800 employees 
in the education service and hired about 500 new employees in light of 
its demands. This represents an increase of roughly 60 percent.
    We have asked for an increase in funding from $19 million to, 
eventually, $34 million spaced out over a 3 year period of time.

2.  If the funding were to remain constant how should we curtail the 
        SAAs role?
    NASAA believes that SAAs provide a unique service to the DVA and 
those eligible for GI Bill benefits. Therefore, curtailment of any 
function could result in negative consequences. The totality of 
services provided is not duplicated by other governmental agencies. 
SAAs alone are responsible for ensuring compliance with Congressional 
and DVA requirements for use of GI Bill benefits at the State level. 
Within the State/VA contract, there are six basic functions (program 
approval, program supervision, technical assistance, liaison, outreach, 
and contract management). The following provides specific information 
concerning two of the functions.
Approval of Programs:
        Approval of programs at institutions/establishments and 
        licensure/certification examinations is the heart and soul of 
        SAAs. This can be divided into categories based upon the type 
        of institution/ establishment. They are: Institutions of Higher 
        Learning (IHL), Non-College Degree Institutions (NCD), 
        Apprenticeships (APP), On-the-Job Training (OJT), and 
        Licensure/Certification (L & C). In considering modifying the 
        approval requirement for SAAs, it has been suggested to 
        eliminate the approval requirement for institutions that are 
        accredited by certain accrediting agencies. Several points are 
        important to consider. First, the role of accrediting agencies 
        does not include a detailed review of individual programs. It 
        definitely does not include approval of individual programs to 
        ensure both Federal and State requirements are met. This is 
        especially true for NCD programs at IHLs. In addition, 
        accrediting agencies only conduct reviews on a periodic cycle 
        (up to 10 years for some agencies). Second, while the amount of 
        time each SAA spends on approving programs at accredited IHLs 
        varies, generally speaking this is a rather limited function in 
        time. Once a program is approved, the SAA ``builds'' upon that 
        approval when they do the annual re-approval. Staff does review 
        all new information to ensure that all approval requirements 
        are met. Staff does spend time reviewing all policies and other 
        related items to ensure the institution is still providing 
        quality programs for veterans/eligible individuals. The 
        approval function remains a vital function and should not be 
        modified or changed.

        Continuing approval by SAAs of individual programs will provide 
        the necessary oversight and will avoid fraud, waste, and abuse 
        and thus protect veteran's benefits. Another important point to 
        note is that since the payment of tuition and fees go directly 
        to the institutions for the Post-9/11 GI Bill, there is a 
        definite potential for increased fraud, waste, and abuse. SAAs 
        will continue to provide oversight thus ensuring the quality 
        and integrity of the learning experience.
Supervision of institutions/establishments:
        SAA staff conducts supervisory visits at all approved 
        institutions/ establishments. By contract with DVA, a minimum 
        of 80 percent of the active institutions/establishments are 
        visited on an annual basis. These visits are not only a time to 
        review all approval criteria to ensure approval requirements 
        continue to be met but also to provide training/information to 
        Certifying Officials. A recent survey conducted by NASAA 
        indicates that 27 percent of Certifying Officials would contact 
        their SAA first with questions. In another item, 44 percent 
        said that their SAA is their primary source of training. DVA 
        was named by only 28 percent. This reinforces the SAA being the 
        ``face of the GI Bill at the State level.'' Additional details 
        of this survey were provided to Juan Lara on August 20, 2009, 
        in a meeting with Skip Gebhart, Director of the West Virginia 
        SAA and Member of NASAA's Legislative Committee. It is also 
        important to note that there are times when major issues with 
        an institution are discovered during a supervisory visit. These 
        include IHLs that are regionally accredited. For example, 
        several years ago a major problem with recordkeeping for non-
        degree programs at Villanova University in Pennsylvania was 
        discovered during a visit. It was necessary for an additional 
        visit and a total records review (73 records in total) was 
        conducted. Working with the Certifying Officials, an adequate 
        records keeping system was developed and implemented. This 
        avoided the need to suspend the approval for Villanova 
        University. This is only one example of how SAAs work to ensure 
        all requirements are met and to avoid fraud, waste, and abuse.

    The bottom line is that SAA roles should not be curtailed in any 
area. All activities assigned to SAAs are vital to the continued 
success of the GI Bill. Further ability to exercise professional 
judgment will be helpful to meeting the requirements of law, 
Congressional intent, and the needs of veterans to reach their career 
goals. Beginning with the DVA centralization of the Chapter 30 
education program in the early 1990s, the presence of the DVA in States 
has steadily fallen. Today, nearly one-fourth of our States do not have 
an Education Liaison Representative based in their State.
    SAAs will continue to meet the demands of our assigned roles with 
vigor. SAAs get the job done now because they have the professional 
expertise and experience to focus the efforts where they are needed. 
They understand the unique challenges of all schools and training 
establishments within our purview. No other agency, Federal or State, 
understands the schools and training establishments and State rules and 
regulations better than SAAs.
    Rather than curtail the SAA roles, Congress should support an 
expansion of our function to include increased responsibilities in 
oversight and expansion. With the expansion of the GI Bill, it is 
imperative to spend the time and money up front in conducting detailed 
approval reviews of policies, procedures, and programs of schools. It 
is just as important that compliance activities be conducted at the 
back end to ensure program and fiscal integrity. Again, no one is 
better placed to conduct oversight activities than SAAs.
    Accordingly, NASAA would support an increased compliance role for 
SAAs. Multiple SAAs have been assisting with compliance surveys. It has 
worked well. With increased funding, our recommendation is that SAA 
involvement in compliance surveys should be expanded to as many States 
as possible. In general, oversight activities are generally best left 
to States and various local entities. Overall responsibility for 
compliance surveys will remain with DVA; however, each SAA could assist 
DVA in this effort by conducting the field work.

3.  In Mission number 7 you state that guidance to benefit recipients 
        and others will change dramatically after the new GI Bill goes 
        into effect. Is this a current need or anticipated need because 
        the new GI Bill has not gone into effect?
    This is an ongoing need. SAAs have seen a drastic increase in 
questions from veterans/reservists/dependents and Certifying Officials 
resulting from the Post-9/11 GI Bill. The number and complexity of 
these questions has increased as the implementation date approached. 
Following August 1, 2009, many SAAs have indicated there has been an 
increase in inquiries. In addition, SAA staff has provided many 
briefings and other training workshops for a variety of individuals. 
These have included high level institution officials, Department of 
Defense personnel, interviews for newspapers and television, etc.

4.  On an average month how many Congressional inquiries do the SAAs 
        receive?
    Based on responses from 39 SAAs, the NASAA survey indicated that 
more than 400 Congressional inquiries were handled by SAAs last year. 
That is an average of about one a month per SAA. While this appears to 
be a limited number of Congressional inquiries, it is important to keep 
in mind this limited number is because SAA staff work closely with DVA 
staff, Certifying Officials, and others to ``solve'' problems before 
they are raised to Congressional level. It is anticipated that due to 
the complexity and categories excluded from increased benefits (NCD 
institutions, apprenticeship/on-the-job training establishments, flight 
schools, and correspondence schools) of the Post-9/11 GI Bill, 
Congressional inquiries will increase. Many Congressional staff Members 
know their SAAs and work with them.

5.  In your testimony you state that overpayments are typically caught 
        by ``extensive and comprehensive record checks conducted by the 
        SAA personnel.'' How often do SAA personnel conduct extensive 
        and comprehensive checks?
    SAAs visit most facilities yearly. When SAAs visit institutions/
establishments, they conduct a records checks by randomly selecting a 
portion of veterans records (if 20 or less, we typically do the whole 
group). Staff then proceeds to review enrollment and other items. SAAs 
should then proceed to review the systems employed by institutions to 
ensure compliance with law and regulation.
    The new GI Bill increases the potential for large overpayments, and 
therefore makes records checks more important than ever for at least 
two reasons. First, the amount of money involved has increased 
significantly. Second, with educational benefits being transferred to 
dependents, the number of drops/withdrawals can be expected to increase 
since younger students are typically more likely to drop classes.

6.  Last year, what percentage of schools were visited by SAA 
        personnel?
    Last year, SAAs visited nearly 90 percent of educational 
institutions and training establishments where veterans or other 
eligible persons were enrolled.

7.  How much oversight do the \1/2\ facilities require on an annual 
        basis?
    It is important to understand that the \1/2\ facilities are 
considered \1/2\ for funding purposes only. These are entire 
establishments with as many complexities as educational institutions.
    The ``\1/2\'' facility designation is an arbitrary value created by 
DVA to differentiate schools from on-the-job training facilities for 
funding purposes, the assumption being that on-the-job programs require 
less (\1/2\) time to supervise. We do not believe this assumption is 
valid. To the contrary, we believe that these facilities can require as 
much of our time and assistance as a school. Some 90 percent of SAA 
directors said in our recent survey that on-the-job training and 
apprenticeship facilities require about the same amount of oversight OR 
MORE. Many times SAA staff are the only professionals who visit them on 
a regular basis.

8.  On a national level how much is spent on: salary, fringe costs, 
        travel, administrative and outreach?
    For 57 SAAs with a total of 260 full time equivalents, the 
following data is provided.*


------------------------------------------------------------------------
                                            Amount          Percentage
------------------------------------------------------------------------
Salary & Fringe Costs**                 $14,445,536.65               78
------------------------------------------------------------------------
Travel                                   $1,061,206.41                6
------------------------------------------------------------------------
Administrative Allowance                 $2,601,499.99               14
------------------------------------------------------------------------
Outreach***                                $289,452.56                2
------------------------------------------------------------------------
  *Data was provided by DVA for Contract Year 2008.
 **Each State sets the salary schedule, fringe benefit rate, and
  professional qualifications for staff.
***This amount does not include salary and travel expenses related to
  outreach activities.

9. In the past 3 years how many SAAs were unable to spend all their 
        funding?
    The results of the NASAA survey indicate that 58 percent of the 
agencies were unable to spend all of their funding during the past 3 
years. DVA provided data for the number of agencies who returned over 
$20,000 (18 agencies for 2006, 12 agencies for 2007, and 13 agencies 
for 2008).
    The nature of a reimbursement contract creates many complications. 
While some States may return funds, many States are required to seek 
supplemental funding to simply fulfill the requirements of law found in 
the contract. Also, the issue becomes one of timing, State 
restrictions, and the hiring process. For example, if the contract 
provides funding for an additional staff member and the contract is not 
issued until January of the contract year, SAAs could not start the 
hiring process until after January. It would typically take 1 or 2 
months to process the staff request through the appropriate State 
channels at which point the actual advertisement could take place. In 
the current economic climate, a number of States are also facing hiring 
freezes and mandatory furloughs. All of these would impact their 
ability to expend contract funds.

10.  What changes would you make to the funding formula?
    This is probably the most difficult question to answer. Any time 
limited funds are divided, the exact formula will create problems. As 
an example, the initial amounts from DVA for the 2010 contract year 
have 32 agencies' funding decreased. For many years, the basis has been 
the number of active institutions/establishments. While not all SAAs 
have agreed with the end result, NASAA will continue to work to develop 
a suggested method to divide the funding. Some of the core principles 
that NASAA considers important when developing any funding formula are: 
workload, variations in State salaries, geographic differences, and the 
importance of maintaining a SAA in every State. During the 2010 Mid-
Winter meeting in February, NASAA will finalize a proposal for the 2011 
funding formula and send it to the Department of Veterans Affairs 
Central Office (DVACO). Our view is that we need to work with DVACO on 
how the funding should be divided to ensure maximum use of the limited 
funds and ensure SAAs can still fulfill their mission.

11.  If the SAAs are being overwhelmed by the number of requests they 
        are receiving for information sessions regarding the new GI 
        Bill, should you pass those requests to the VA local office 
        directly?
    In reality, there are no ``local DVA offices'' in many States as 
far as education benefits are concerned. Processing is done in four 
regional centers and individual States may or may not have an Education 
Liaison Representative out-based from the regional center. Most SAAs 
work closely with the DVA staff assigned to their State. However, the 
NASAA survey indicated that there are at least 14 States that have no 
DVA education staff assigned in-state. In addition, DVA staff is 
overwhelmed with the implementation of the new GI Bill. Since each SAA 
and DVA works as a team, it is best to let them divide the workload. 
SAAs do pass a number of general inquiries and requests for information 
sessions to DVA. However, SAAs are also reporting that DVA staff are 
requesting assistance from the SAA in conducting information sessions 
or passing the requests directly to the SAA.
    Many times a beneficiary will call the SAA directly and does not 
understand the right question to ask or out of frustration asks the 
wrong question. Our offices often spend more time getting to the real 
issue with the veteran than the person on the toll-free line does. We 
generally have more experience and have been in the field long enough 
to understand the intricacies of the problem especially if it has an 
academic or training orientation.

12.  If the work for SAAs is growing at a staggering rate, have you 
        defined what work should be directed to the VA and which work 
        the SAAs should do?
    As discussed in the previous question, each SAA can work with DVA 
staff to determine what is needed for their State. DVA is also 
overwhelmed, and in many cases, there is no one at DVA with the same 
expertise to do the work. We certainly agree with the inherent scope of 
the question which is to say each SAA will continue to work with DVA 
staff to provide the best possible service to veterans/eligible 
individuals. Together we can provide the quality service that has been 
earned by those who have or are continuing to serve our country.

13.  Is training certifying officials a mission for the SAAs or is the 
        VA better suited to provide that training?
    The short answer is that the training of Certifying Officials is 
needed by both DVA and individual SAAs. A recent survey of school 
officials showed, in fact, that 44 percent of them turn first to their 
SAA for training, compared with only 28 percent who would turn to the 
DVA. This is a significant validation of the SAAs effectiveness in 
providing training to complement DVA efforts. In-state training can 
range from DVA organized (with SAA assisting) to SAA organized (with 
DVA staff assisting). In addition, DVA does conduct regional training 
workshops. These provide training for the Certifying Official who can 
travel. Usually, attendance is limited when looking at the total number 
of Certifying Officials. For example, during the June Regional 
Processing Office training workshop in Cincinnati, Ohio, there were 
less than 20 Pennsylvania officials attending. In comparison, the 
Pennsylvania SAA conducted nine Certifying Official Workshops 
throughout the State in April with 474 institution/establishment 
officials attending, and 16 one-half day training sessions on the new 
GI Bill in July with 281 institution officials attending. The NASAA 
survey indicated that at least 29 SAAs have hosted training with at 
least 23 taking the lead in providing training. It is also important to 
note that a significant amount of training occurs during SAA visits to 
institutions/establishments.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      July 20, 2009

Mr. Keith M. Wilson
Director
Office of Education Service
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Wilson:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Hearing on 
Subcommittee on Economic Opportunity ``The Evolution of State Approving 
Agencies'' on July 16, 2009. Please answer the enclosed hearing 
questions by no later than Monday, August 31, 2009.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman
                               __________
                        Questions for the Record
          The Honorable Stephanie Herseth Sandlin, Chairwoman
                  Subcommittee on Economic Opportunity
                  House Committee on Veterans' Affairs
                             July 16, 2009
                 Evolution of State Approving Agencies
    Question 1: According to a GAO report published in March of 2007, 
three recommendations were made: first, that the VA should require the 
SAAs to track and report data on resources spent on approval 
activities, second, the VA should collaborate with other agencies to 
diminish any duplicative work and streamline the approval process, and 
third, the VA should establish outcome-oriented performance measures to 
assess the effectiveness of SAA efforts. Were any of these 
recommendations implemented by the VA? If yes, what was the outcome? If 
not, why were these recommendations not?

    Response: In response to the Government Accountability Office (GAO) 
report:

    1.  The Department of Veterans Affairs (VA) implemented a tracking 
and reporting system. Each contract now requires State approving 
agencies (SAA) to track and report time spent on outreach activities 
and expenses. The SAAs provide data to VA in quarterly outreach visit 
reports.

    2.  VA collaborated with other Federal agencies and identified 
potential overlap with approval activities. However, statutory 
amendments to approval criteria are necessary to give the Secretary 
authority to act on any findings of duplicative efforts.

        a.  Subsequent to the GAO findings, the Veterans Benefits 
        Improvement Act of 2008, Public Law 110-389, amended 38 U.S.C. 
        Sec. 3673 to provide that the Secretary shall take appropriate 
        actions to ensure the coordination of approval activities 
        performed by SAAs under this chapter and chapters 34 and 35 of 
        this title and approval activities performed by the Department 
        of Labor, the Department of Education, and other entities in 
        order to reduce overlap and improve efficiency in the 
        performance of such activities. The Act further provided that 
        VA must submit a report to Congress that includes information 
        on the actions taken to establish outcome-oriented performance 
        standards for SAAs, the actions taken to implement a tracking 
        and reporting system for resources expended for approval and 
        outreach activities by SAAs; and any recommendations for 
        legislative action that the Secretary considers appropriate to 
        take such actions.

        b.  VA transmitted the report to Congress in July 2009. As part 
        of the report, VA explained that further legislation is 
        necessary to give the Secretary the authority to act on any 
        findings of duplicative efforts. Further legislation is 
        necessary because 38 USC 3672 provides that a Veteran or 
        eligible person may not receive educational assistance unless 
        the program is approved by the SAA as provided for under the 
        provisions of chapter 36 of title 38. In addition to the 
        statutory requirement that the SAA must approve the program of 
        education, other provisions within chapter 36 provide the 
        criteria the SAA must apply when determining whether or not a 
        course or program may be approved.

        c.  VA stated the statute could be amended to provide the 
        Secretary with expanded authority to accept:

          <bullet>  Registered apprenticeship approvals made by the 
        Department of Labor;
          <bullet>  Flight programs offered by pilot schools approved 
        by the Federal Aviation Administration (FAA);
          <bullet>  Accredited programs offered by public institutions 
        of higher learning (IHL) as approved for purposes of VA 
        benefits without a separate evaluation by the SAA;
          <bullet>  Tests for licensing or certifications offered by 
        Federal, State, or local government;
          <bullet>  Flight courses and training offered by flight 
        schools that have been issued a pilot school certificate by the 
        FAA;
          <bullet>  Department of Labor or State apprenticeship 
        agencies registered apprenticeship training programs; and
          <bullet>  Public and private secondary schools approved for 
        operation in the State in which they are operating.

        d.  If the Secretary was provided more discretion to direct SAA 
        activities, VA could focus SAA resources on programs offered by 
        proprietary institutions, nonaccredited institutions, and on-
        the-job training programs that are not registered 
        apprenticeship programs. VA could then potentially use SAA 
        resources to conduct compliance reviews at institutions, as the 
        Secretary deems appropriate.

    3.  VA developed performance measures to assess the effectiveness 
of the SAAs. The performance measures were implemented on November 1, 
2008, and incorporated into the fiscal year (FY) 2009 contracts. FY 
2009 performance will be reviewed at the joint peer review group (JPRG) 
scheduled to meet in December 2009.

    Question 2: Is it correct that VA counts apprenticeship and on-the-
job training as only \1/2\ of an active facility? If so, why is that 
and how much oversight do they require on an annual basis?

    Response: VA considers apprenticeship and on-the-job training (OJT) 
as one-half of an active facility based on the amount of work required 
to complete the initial approval and supervisory visits. For example, 
SAAs do not have to review a lengthy school catalog for initial 
approval of OJT or apprenticeship programs, which is required for IHLs.

    SAAs are required to visit 80 percent of its active institutions 
each fiscal year. They can include OJT or apprenticeship facilities as 
part of this 80 percent. Oversight for OJT and apprenticeship 
facilities is the same as required for IHLs. SAAs approve the program, 
complete inspection of sites, communicate with the certifying official 
as necessary, and complete supervisory visits. The primary difference 
between a supervisory visit to an IHL and an OJT or apprenticeship is 
the amount of time required for completion of the visit. Less time may 
be required for the visit to an OJT or apprenticeship facility as the 
facility may have just one Veteran in training. In such cases, less 
documentation and records review are required.

    Question 3: If the SAAS were abolished today, how much would it 
cost the VA to perform the same functions?

    Response: The staffing for SAAs in FY 2008 was 233 full-time 
employees (181 professional staff/52 support staff). If VA replaces all 
SAA employees with its own corresponding full-time employees, VA's 
general operating expenses (GOE) will increase over $25 million each 
fiscal year. Included in these expenses are payroll costs (salaries and 
fringe benefits) as well as non-pay costs such as training, rent, 
supplies, and equipment.

    Question 4: On average, how many SAAs fail to spend all their 
funds? Can these unexpended funds be transferred to a state running out 
of money?

    Response: Approximately 40 SAAs do not spend all of its allocated 
funds each fiscal year. The amount returned varies from $700 to 
$130,000. In FY 2008 eight SAAs returned less than $5,000 each, and 28 
agencies returned more than $5,000 each. In the same year, $1 million 
in funding was returned and 17 agencies requested supplemental funding 
of approximately $763,000. There are several reasons the SAAs do not 
spend all of their funds. Some of the common reasons are:

    <bullet>  Hiring freezes imposed by the State that prevent the SAAs 
from hiring as stipulated in the contract
    <bullet>  Cancellations of travel associated with other contract 
obligations
    <bullet>  Separation of employees as a result of retirement or 
resignation

    An SAA may request a supplement to the contract when it has 
expended its allocated funds. If funding has been returned, VA will 
review each supplement request to determine if it can be granted. VA 
will consider the following factors to approve or disapprove the 
supplement request:

    <bullet>  Justifications for the supplement
    <bullet>  Allocation amount
    <bullet>  Expenditures
    <bullet>  SAA's rating
    <bullet>  SAA's current workload and staffing levels
    <bullet>  Previous supplement requests

    The SAAs must show fiscal responsibility by upholding the 
contracted funding before VA can award a supplement.

    Question 5: Is the approval of programs by the SAAs unnecessary 
since other government agencies already approve programs of studies?

    Response: The statute provides that the SAA must approve programs 
of education before VA may pay educational assistance to an eligible 
Veteran or other eligible person. Legislation is necessary to provide 
the Secretary additional authority.

    Question 6: What efforts has the VA made to work with the 
Department of Education and Department of Labor to identify any 
duplicative efforts between the three agencies?

    Response: VA formed working groups and met with the Department of 
Labor and Department of Education to identify duplicative efforts 
between the three agencies. VA determined the statute would need to be 
amended in order for the Secretary to act on any duplicative efforts.

    Question 7: How many of the SAAs are meeting the performance 
measures outlined in your testimony?

    Response: Education liaison representatives monitor the SAA's 
quarterly reports and approvals, and work closely with SAAs to monitor 
performance. Currently, two are having difficulty meeting the standards 
set forth in the contract. VA continues to provide training and support 
to the SAAs that are not meeting the standards set forth in the 
contract. We have begun to conduct site visits at those facilities in 
an effort to identify and resolve issues they are experiencing. Since 
each SAA is experiencing different issues, we have also assigned 
mentors to help them resolve their issues.
    Full fiscal year performance will be reviewed at the JPRG scheduled 
to meet in December 2009. The JPRG will review FY 2009 performance and 
recommend ratings for each SAA.

                                 <all>

</pre></body></html>
